<html>
<title> - [H.A.S.C. No. 111-31]READINESS AND SUSTAINMENT OF THE NAVY'S SURFACE FLEET</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-31]

         READINESS AND SUSTAINMENT OF THE NAVY'S SURFACE FLEET

                               __________

                                HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 25, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                  U.S. GOVERNMENT PRINTING OFFICE
49-866                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
NEIL ABERCROMBIE, Hawaii             ROB BISHOP, Utah
SILVESTRE REYES, Texas               MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
HANK JOHNSON, Georgia                MICHAEL CONAWAY, Texas
CAROL SHEA-PORTER, New Hampshire     DOUG LAMBORN, Colorado
JOE COURTNEY, Connecticut            ROB WITTMAN, Virginia
DAVID LOEBSACK, Iowa                 MARY FALLIN, Oklahoma
GABRIELLE GIFFORDS, Arizona          JOHN FLEMING, Louisiana
GLENN NYE, Virginia                  FRANK A. LoBIONDO, New Jersey
LARRY KISSELL, North Carolina        MICHAEL TURNER, Ohio
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
               Vickie Plunkett, Professional Staff Member
                Lynn Williams, Professional Staff Member
                     Megan Putnam, Staff Assistant




















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, March 25, 2009, Readiness and Sustainment of the 
  Navy's Surface Fleet...........................................     1

Appendix:

Wednesday, March 25, 2009........................................    19
                              ----------                              

                       WEDNESDAY, MARCH 25, 2009
         READINESS AND SUSTAINMENT OF THE NAVY'S SURFACE FLEET
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Campbell, Rear Adm. (Upper Half) (Select) Joseph F., USN, 
  Director of Staff, Fleet Maintenance Office (USFF N43).........     6
Cullom, Rear Adm. (Upper Half) (Select) Philip H., USN, Director, 
  Fleet Readiness Division (OPNAV N43)...........................     4
Eccles, Rear Adm. (Lower Half) Thomas J., USN, Deputy Commander 
  Naval Systems Engineering, Naval Sea Systems Command (SEA 05)..    10
McManamon, Rear Adm. (Lower Half) James P., USN, Deputy Commander 
  for Surface Warfare, Naval Sea Systems Command (SEA 21)........     8

                                APPENDIX

Prepared Statements:

    Cullom, Rear Adm. Philip H., joint with Rear Adm. Joseph F. 
      Campbell, Rear Adm. James P. McManamon and Rear Adm. Thomas 
      J. Eccles..................................................    26
    Forbes, Hon. J. Randy........................................    25
    Ortiz, Hon. Solomon P........................................    23

Documents Submitted for the Record:

    Report to Congress, Ship Maintenance and Material Conditions.    49

Witness Responses to Questions Asked During the Hearing:

    Mr. Nye......................................................    69
    Ms. Shea-Porter..............................................    69
    Mr. Taylor...................................................    69
Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    84
    Mr. Nye......................................................    86
    Mr. Ortiz....................................................    73
    Mr. Wittman..................................................    89
 
         READINESS AND SUSTAINMENT OF THE NAVY'S SURFACE FLEET

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                         Washington, DC, Wednesday, March 25, 2009.
    The subcommittee met, pursuant to call, at 2:17 p.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. The subcommittee will come to order.
    Today, the Readiness Subcommittee meets to hear testimony 
on the readiness of the ships comprising the Navy's surface 
fleet and the Navy's plan to sustain those ships to achieve and 
expand their anticipated service life. The hearing is intended 
to inform Readiness Subcommittee members on Navy operations and 
maintenance issues prior to release of the fiscal year 2010 
budget submission.
    I thank our distinguished Navy witnesses for appearing 
before this subcommittee today to discuss ship readiness and 
sustainment. Our witnesses represent the Office of the Chief of 
Naval Operations, U.S. Fleet Forces Command, and Naval Sea 
Systems Command.
    The Navy intends to extend the operational life of its 
ships 5 years or more beyond the designated lifespan in order 
to achieve a 313-ship fleet. However, the Navy is presently 
experiencing a series of incidents that raise concerns 
regarding possible systemic problems with the Navy's manning, 
training, and maintenance.
    In addition to recent collisions, groundings, and even a 
fatal accident, in the past 3 years 10 ship commanders have 
been relieved of duty for failure to maintain training or 
materiel readiness standards. These concerns bring into 
question the Navy's ability to achieve even the expected 
service life of its fleet and sustained fleet readiness, let 
alone extend the service life of entire ship classes.
    These incidents follow changes in the way the Navy conducts 
maintenance, changes in manpower and crew size, and changes in 
how the Navy trains its maintenance personnel. In view of these 
changes, the Readiness Subcommittee on March 16 asked the 
Government Accountability Office (GAO) to review the training, 
size, composition, and capabilities of Navy ship crews.
    Specifically, we requested the GAO to: evaluate current 
requirements, authorization, and on-hand personnel levels for 
selected ship types compared to historical data for the same or 
similar ship types, including underlying reasons for any 
differences; compare shipboard rank and rate distributions over 
time and analyze underlying reasons for any changes and their 
impact on ship capabilities; evaluate qualification training 
for personnel in selected shipboard designators and ratings to 
determine any changes to formal off-ship training programs, 
including whether such changes have affected personnel 
availability and the amounts and types of on-the-job training 
for personnel to achieve required qualifications; and, also, 
evaluate to what extent requirements to provide personnel for 
Individual Augmentee and ``In Lieu Of'' positions in support of 
ongoing operations are impacting the levels or composition of 
shipboard manning.
    Our witnesses today are four distinguished Naval officers: 
Rear Admiral Philip Cullom, Director of Fleet Readiness 
Division, Deputy Chief of Navy Operations for Fleet Readiness 
Logistics; Rear Admiral Joseph Campbell, Director of Staff, 
Fleet Maintenance Officer, U.S. Fleet Forces Command; Rear 
Admiral James McManamon, Deputy Commander for Surface Warfare, 
Naval Sea Systems Command; and Rear Admiral Thomas Eccles, 
Deputy Commander, Naval Systems Engineering, Naval Sea Systems 
Command.
    Now I would like to yield to my good friend, the Ranking 
Member of the committee, Mr. Forbes.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 23.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Thank you, Mr. Chairman. And I want to first 
begin by thanking you for holding this hearing and for the 
hearings that you hold consistently, getting the kind of 
information we need to do our oversight; and also Mr. Taylor, 
who, while not chairing this committee, does such a good job on 
the Seapower Subcommittee.
    And I thank all of you for taking the time to be with us 
today. And we understand you have a lot on your plate, and we 
just appreciate your insight with us.
    As the committee is well aware, the Navy has been operating 
at extremely high operation tempos for several years. And 
during this period, not only have they worked to improve 
operational availability by implementing the Fleet Response 
Plan, but they have also made many changes in their training 
programs and are restructuring their approach to surface fleet 
maintenance and sustainment.
    I am very concerned that the confluence of all these 
changes in a relatively short time period have placed stressors 
on the fleet that have a degenerating effect on readiness, 
potentially jeopardizing safety and driving up long-term 
sustainment costs.
    This committee has been briefed on the numerous accidents, 
incidents, and unfit or seriously degraded inspection 
assessments that have plagued the Navy recently, and I think we 
must be careful not to view these events in isolation. While 
they may appear to be unrelated at first glance, I am concerned 
that they may be indicators of a broader set of problems. From 
unfit Board of Inspection and Survey (INSURV) inspections to 
the recent collision of the USS Hartford and the USS New 
Orleans, we must work to understand if these events are simply 
the cost of doing business in these challenging times or if 
they are indicators that the Navy needs to make course 
corrections.
    Mr. Chairman, this is a very important hearing, and I want 
to thank you again for holding it. And I also understand that 
the witnesses we have with us today are here to discuss the 
condition of the surface fleet and the Navy's sustainment 
challenges. I would like to welcome all of them.
    And, gentlemen, thank you for taking time to talk with us, 
as we mentioned earlier.
    But I hope that our discussion today will help us 
understand the challenges the surface fleet is facing and 
provide us some context on which to gauge the events I 
mentioned earlier. I am also interested to hear about the steps 
the Navy is taking to correct these deficiencies and to 
implement a sustainment strategy necessary to obtain the 
required service life out of our fleet.
    There is no doubt we are facing a tremendous challenge, and 
I don't believe we are going to find a silver-bullet solution. 
I believe everything must be on the table for consideration, 
from manpower and resourcing to training to leadership. And we 
need to take time to evaluate our risk assessments and make 
sure we are comfortable with the risk levels.
    I think we must also look at the increased reliance on 
contractors to provide maintenance that was traditionally 
performed by our sailors. While this approach to sustainment 
may initially provide a cost benefit, there is a downside in 
that our young sailors aren't required to perform many of the 
standard repair activities that hone their skills and sharpen 
their ability to assess the ship's condition. This could have a 
long-term impact on the skill and ability of our sailors, and 
it is one specific area we must examine.
    And then just two other points. I recognize that everybody 
in here has good intentions in where we are going, but earlier 
today, in the Judiciary Committee, we passed out a bill, which 
was the Free Flow of Information Act, because we realized how 
important it was to get facts and concepts and ideas out as 
soon as possible to discuss them.
    I have to tell you that I am extremely bothered by the 
nondisclosure agreement that I know several members of our 
military were forced to sign. And this administration 
apparently has allowed that to take place, because, if you look 
at this form--and I know that none of you four had to sign 
that--but if you look at this, there is a huge question as to 
whether or not anybody involved in that budgetary process can 
ever disclose this information or talk about it. And I think 
that gives us grave concern when we are talking about 
maintenance of ships, when we are talking about weapons 
systems, whatever we are. And I hope at some point in time this 
committee will look at that.
    And the final thing I want to address is something that, 
while all of us sitting here talk about the maintenance dollars 
that we are going to need and what we are going to need to have 
a strong and viable Navy, with the bailouts that we have had 
and the stimulus packages that we have had--and I have raised 
this before--but the reality is the interest alone on those 
bailouts and stimulus packages would fund the entire budget for 
all of National Aeronautics and Space Administration (NASA), 
all of the National Science Foundation, all of the Department 
of Transportation, all of Homeland Security, all of the Federal 
Bureau of Investigation (FBI), all of the Department of 
Justice, every operation of the White House, every operation of 
Congress, and every Army Corps of Engineers project in the 
country.
    And, at some point in time, I worry, Mr. Chairman, that we 
are going to come back here saying we need dollars, and we are 
going to have to struggle to see where we are going to get 
those dollars and how we are going to get them. And I think 
that is going to be a huge challenge.
    So, with that, Mr. Chairman, I yield back and look forward 
to our witnesses and their testimony today.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 25.]
    Mr. Ortiz. Thank you. The gentleman has brought up some 
very good points.
    And now, at this point, I would like Admiral Cullom to 
please proceed with your testimony, followed by Admirals 
Campbell, McManamon, and Eccles.
    Thank you. You may proceed, sir.

STATEMENT OF REAR ADM. (UPPER HALF) (SELECT) PHILIP H. CULLOM, 
      USN, DIRECTOR, FLEET READINESS DIVISION (OPNAV N43)

    Admiral Cullom. Thank you, sir.
    Chairman Ortiz, Congressman Forbes, and distinguished 
members of the Readiness Subcommittee, thank you for the 
opportunity to appear before you today to testify on surface 
ship readiness and sustainment.
    My name is Rear Admiral Phil Cullom, and I am the director 
of fleet readiness on the Office of the Chief of Naval 
Operations (OPNAV) staff. The Navy appreciates your support for 
the readiness of the surface fleet and the critical part 
materiel readiness and sustainment play in reaching expected 
service life. We have assembled witnesses from the OPNAV staff, 
Fleet Forces Command maintenance staff, and Naval Sea Systems 
Command to testify on these topics today.
    I am responsible to the chief of naval operations for 
validating the fleet-generated maintenance and operational 
requirements and then programming the resources necessary to 
operate and sustain our ships. I am here today to provide you 
with the OPNAV assessment of surface ship readiness and provide 
an overview of the major actions we are taking to better define 
surface ship maintenance requirements, properly resource that 
requirement, and then attain full service life for our ships.
    The Navy requires a minimum fleet of 313 ships by 2020; 215 
of those 313 ships are already in service today. A key 
underpinning of the Navy's 30-year shipbuilding planned and 
sustainment of a forward-deployed, surge-ready Naval force is 
our ability to reach the expected service life for each of our 
ship classes. Reaching expected service life demands an 
integrated engineering approach to ensure the right maintenance 
is planned and executed over a ship's lifetime, as well as the 
resources necessary to execute those plans.
    A well-established process exists to identify and program 
the resources required for ship maintenance. A cornerstone of 
this process is the Navy's ship maintenance model, which 
receives a formal and independent validation by the Johns 
Hopkins Applied Physics Labs.
    The initial input to the model are class-specific, notional 
man-days that are validated by the fleet. The ship maintenance 
model uses these inputs to price the actual cost of that 
maintenance. Since the maintenance generation process begins 
almost two years prior to the actual budget year and whole 
unique maintenance developments routinely occur in the year 
prior to execution when most of the ships are deployed, 
execution-year realities have put pressure on the need for 
significant supplemental funding, work deferral, or 
occasionally even cancellation of availabilities.
    In order to increase the fidelity of the maintenance budget 
and reduce the churn associated with work deferral or 
availability cancellation, in August of 2007 the Navy 
instituted a process improvement to provide better visibility 
to hull-specific maintenance requirements. This Flag-level 
process, known as the ``nine-step process,'' conducts a hull-
by-hull review of individual ship maintenance requirements that 
refines notional ship maintenance requirements and then tailors 
them to the physical condition of a specific ship as it gets 
closer to its scheduled availability period.
    This produces a more refined fleet maintenance requirement 
that updates our input into our ship maintenance model for 
pricing purposes. Beginning in 2011, we will use these 
adjustments to update our notional requirements, strengthening 
our ability to forecast future-year maintenance requirements 
and reducing our dependence on supplemental funding.
    The Navy has three distinct classes of ships: surface 
ships, submarines, and aircraft carriers. Simply put, 
submarines and aircraft carriers have very robust and 
technically validated class maintenance plans that precisely 
define the 100 percent maintenance requirement that is needed 
to reach expected service life.
    In conjunction with the class maintenance plan, submarines 
and aircraft carriers also have dedicated lifecycle 
organizations whose sole functions are to maintain and 
continuously update class maintenance plans and build 
availability work packages that ensure we execute the 100 
percent maintenance requirement. This process has a proven 
track record of ensuring submarines and aircraft carriers reach 
that expected service life.
    Surface ships have not been maintained with the same rigor 
or discipline. To provide a highly surge-capable and present 
surface force, current maintenance plans limit the time ships 
spend in depot availability periods and instead spread 
maintenance into several pier-side continuous maintenance 
availabilities each year.
    This focus on short-term, get-the-ship-underway type of 
work, instead of the lifecycle-focused work associated with 
tanks, structures, and distributed systems executed on 
submarines and aircraft carriers, is adding risk to our ability 
to reach expected service life for our surface ships.
    Additionally, surface ship class maintenance plans have not 
been as detailed or maintained with the same technical rigor as 
those for aircraft carriers and submarines. This has been one 
of the greatest obstacles to the surface fleet's ability to 
articulate that 100 percent maintenance requirement necessary 
to reach their expected service life.
    Fleet priorities, the unambiguous maintenance requirements 
of aircraft carriers and submarines, and the lack of an updated 
technically validated surface ship class maintenance plan has 
resulted in surface ship maintenance being the area where we 
have historically taken funding risk in a resource-constrained 
environment.
    Despite these challenges, current ship readiness for the 
Navy's surface force remains strong, and the committee can be 
assured that we do not have a hollow force. We are meeting all 
our commitments around the globe today. If allowed to persist, 
however, these materiel discrepancies will ultimately impact 
our future readiness and shorten the service life of our 
surface ships.
    The good news is that the Navy and Surface Warfare 
Enterprise have taken specific steps to address these issues. 
Partners from the Navy's technical community and fleet 
maintenance community are with me here today to provide the 
committee with a more detailed account of the actions they are 
taking in their respective areas of responsibility to ensure we 
continue to maintain and sustain our Naval forces.
    We appreciate your ongoing support and this opportunity to 
testify before the committee. Thank you.
    [The joint prepared statement of Admiral Cullom, Admiral 
Campbell, Admiral McManamon, and Admiral Eccles, can be found 
in the Appendix on page 26.]
    Mr. Ortiz. Thank you.
    Admiral Campbell.

    STATEMENT OF REAR ADM. (UPPER HALF) (SELECT) JOSEPH F. 
  CAMPBELL, USN, DIRECTOR OF STAFF, FLEET MAINTENANCE OFFICE 
                           (USFF N43)

    Admiral Campbell. Yes, sir. Chairman Ortiz, Congressman 
Forbes, distinguished members of the subcommittee, thank you 
for the opportunity to appear before you today and address 
strategies for readiness and sustainment of the Navy's fleet.
    My name is Rear Admiral Joseph Campbell, and I am the fleet 
maintenance officer for U.S. Fleet Forces Command. I am here to 
provide you with a fleet assessment of the Navy's most recent 
ship maintenance findings and recommendations for corrective 
actions. Additionally, I will address the fiscal year 2009 ship 
maintenance budget.
    The Navy's Board of Inspection and Survey, referred to as 
INSURV, conducts material inspections on U.S. Navy ships every 
five years. The five primary areas that comprise material 
inspections include: deck; propulsion; combat systems; command, 
control, communications, and computers, known as C4I; and 
supply.
    Upon completion of INSURV's inspections, the results are 
submitted to the chief of naval operations. In addition to 
individual ship reports, the chief of naval operations and 
fleet commanders receive an annual report summarizing fleet 
trends and the overall health of the force. Currently, overall 
trends are positive, though some specific functional areas 
require further attention.
    I would now like to address in some detail recent INSURV 
results between the years 2003 and 2008. The surface naval 
force executed 191 material inspections with a pass rate of 
over 91 percent. Some high-visibility failures in 2008 led the 
Commander, Naval Surface Force to execute a range of 
assessments, reviews, and corrective actions to ensure that any 
degrading trend in material condition of ships was quickly 
identified and immediate corrective actions were devised and 
successfully implemented.
    The ships with these degraded results are indicative of the 
ship's leadership team not following procedures and policies 
and not practicing the basics of equipment maintenance and 
operation. Commander, Naval Surface Force is correcting these 
trends via improvement in deck-plate knowledge of sailors and 
the Preventative Maintenance System accomplishment rates, 
development of applicable training courses and schools, 
improved troubleshooting procedures and techniques, and focused 
shipboard assessment teams for these deficient areas.
    Conversely, the positive trends on other ships are the 
result of increased training, assessments, and the directed 
actions by the Commander Naval Surface Forces, by Commander 
Naval Sea Systems Command, and Fleet Maintenance and Training 
resource providers.
    After the findings of the 2008 material inspections were 
released for the USS CHOSIN and the USS STOUT, Commander Naval 
Surface Forces embarked on a back-to-basics focus for ships. 
Shipboard leadership reemphasized preventative maintenance 
system program execution, zone inspection techniques, material 
condition documentation, and maintenance of high operation 
standards. Class squadrons, referred to as CLASSRONs, were also 
directed to apply focus to Inspection & Survey (INSURV) 
preparation and execution practices and to assist ships with 
the same.
    To determine if systemic support problems existed, 
Commander Naval Surface Forces conducted a comprehensive review 
of overall readiness of surface ships. This was known as the 
``take a fix'' round of readiness briefs, where Commander Naval 
Surface Forces assessed and reported on all readiness factors, 
those being maintenance, supply, training, and personnel across 
the force. The review concluded that stressors were present in 
all readiness factors and course corrections were needed.
    From those efforts, the Navy's Surface Ship Maintenance 
Strategic Offsite convened to identify gaps in the surface ship 
maintenance program and to clarify roles and responsibilities 
for Navy organizations in the maintenance program. The 
overarching focus of this offsite group was the commitment to 
charter, resource, activate, and support the surface ship 
lifecycle management activity, whose sole focus will be to 
establish rigorous engineered lifecycle maintenance plans and 
requirements for all surface ships.
    I will now briefly discuss the status of the fiscal year 
2009 ship maintenance budget. Ship maintenance began fiscal 
year 2009 with a shortfall of $417 million. Of the $417 million 
shortfall, $186 million is with U.S. Fleet Forces Command and 
$231 million is at U.S. Pacific Fleet.
    Since 2003, we have relied on supplemental appropriations 
to fund additional ship maintenance that has arisen from higher 
wartime operation tempos. There has been strong congressional 
support over the last seven years that has enabled us to plan 
and execute our ship maintenance workload.
    In fiscal year 2009, due to the uncertainty of answers to 
two questions--one, will we receive additional funds in fiscal 
year 2009; and, two, if we receive additional funds what will 
be the amount--the fleet is taking a measured approach and 
prudent steps to determine mitigations that will be required if 
no additional fiscal year 2009 funding is received.
    In light of current fiscal realities, we are reviewing 
financial expenditures to ensure we are able to meet 
requirements for the remainder of the year. While challenging, 
it is necessary for us to execute these actions at this point 
in the year in order to remain within fiscal controls. We will 
continue to monitor our execution through the fiscal year and 
relax these measures if funding becomes available.
    It is important to consider that we are now just halfway 
through the fiscal year and are currently performing our mid-
year review. Due to the often emergent nature of repairs to 
ships, there is always a possibility that additional 
maintenance will need to be accomplished later in the year.
    In summary, the Navy is committed to continually improving 
ships' maintenance and lifecycle protocol and best practices. 
The Navy continues to address deficiencies and issues 
identified during INSURV inspections. We appreciate your 
ongoing support and the opportunity to testify before the 
committee today.
    Thank you, sir.
    [The joint prepared statement of Admiral Campbell, Admiral 
Cullom, Admiral McManamon, and Admiral Eccles, can be found in 
the Appendix on page 26.]
    Mr. Ortiz. Go ahead, sir.

 STATEMENT OF REAR ADM. (LOWER HALF) JAMES P. MCMANAMON, USN, 
DEPUTY COMMANDER FOR SURFACE WARFARE, NAVAL SEA SYSTEMS COMMAND 
                            (SEA 21)

    Admiral McManamon. Mr. Chairman, Congressman Forbes, 
distinguished members of the subcommittee, thank you very much 
for this opportunity to testify on surface ship material 
readiness, particularly as it pertains to sustainment of 
surface ships, the lifecycle management of surface ships, and 
the Navy's use of the multi-ship, multi-option--MSMO--
acquisition strategy to execute both the fleet response plan 
and the material readiness of our ships.
    My name is Rear Admiral Jim McManamon, and I am here as the 
deputy commander, Naval Sea Systems Command, Surface Warfare, 
SEA 21. I am responsible for the maintenance and modernization 
of nonnuclear surface ships currently operating in the fleet. I 
am also the Surface Warfare Enterprise's designated focal point 
into the Naval Sea Systems Command and acquisition community, 
synchronizing lifetime support efforts for all in-service and 
decommissioned surface combatants, nonnuclear aircraft 
carriers, amphibious warships, Command Mine Warfare and special 
mission craft. SEA 21 is the strategic bridge to the fleet that 
connects Navy headquarters, NAVSEA, and program executive 
officers to the waterfront and operating forces.
    A key component of ship readiness is a robust and 
proficiently executed process for ship maintenance and 
sustainment. Ship maintenance is more than the conduct of 
industrial efforts at a shipyard or another repair activity. 
All ship maintenance requires a solid foundation of engineering 
and analytics such that the right maintenance actions occur at 
the right time and for the right reasons.
    In spring of 2008, in response to a growing concern that 
material condition of surface ships would not provide 
sufficient margins to ensure each ship would meet its 
designated service life, Commander, Naval Sea Systems Command 
recommended establishment of a dedicated activity to provide 
centralized lifecycle management and support for U.S. Navy 
surface ships. The Surface Warfare Enterprise approved that 
recommendation, and the Navy will formally stand up the Surface 
Ship Lifecycle Management Activity in May 2009. Partnering with 
fleet forces, this activity will assess and manage the 
maintenance requirements through the lifecycle of ships in the 
surface fleet in order to better plan and budget for long-term 
maintenance needs.
    The Lifecycle Management Activity is modeled after and 
would function very similarly to the Submarine Maintenance, 
Engineering, Planning and Procurement Activity, SUBMEPP; and 
the Carrier Planning Activity, CPA. This activity will 
maintain, monitor, and refine class maintenance plans for all 
surface ships to maintain material readiness for the projected 
service life, develop lifecycle strategies to address system 
upgrades, and fully integrate the integrated class maintenance 
plan into each surface ship's maintenance schedule and 
availability planning process.
    While improving maintenance planning on existing platforms, 
the Navy is also challenged with fleet introduction of new 
platforms. The Littoral Combatant Ship (LCS) is a class of ship 
that does not conform to the legacy process used on earlier-
generation ships since the manning is reduced and coupled at 
the high level of automation, with much of that support, 
including maintenance functions, pushed ashore.
    An interim support period, ISP, has been contracted for a 
trial period of three years during which the government will 
conduct a business case analysis in order to determine an 
optimal long-term sustainment approach. The three-year period 
will give the Navy adequate time to evaluate contractor 
performance, responsiveness, and appropriate use and repair 
data in order to determine the optimal balance of ship's force, 
contractor, and organic Navy workforce needed to support LCS 
for the long term.
    In a deliberate view to the future, ship life assessment 
pilots will be conducted to determine the ability of a ship to 
meet its expected service life. The surface ship life 
assessment pilots are particularly important as they will 
provide a solid analytical basis for making critical repair 
decisions in selected areas and provide the potential to build 
confidence that our surface ships can fulfill force level 
requirements well into the future by assuring they will remain 
effective warships for the full duration of their expected 
service life.
    This effort takes a best practice from industry and 
utilizes advanced finite element modeling techniques to provide 
a fully engineered view of the criticality of needed 
maintenance actions.
    With your assistance, we will continue to provide maximum 
material readiness for our surface ships and improve our 
ability to ensure they reach their expected service life.
    Thank you again for letting me testify today. I look 
forward to your questions.
    [The joint prepared statement of Admiral McManamon, Admiral 
Cullom, Admiral Campbell, and Admiral Eccles, can be found in 
the Appendix on page 26.]
    Mr. Ortiz. Admiral Eccles, go ahead, sir.

  STATEMENT OF REAR ADM. (LOWER HALF) THOMAS J. ECCLES, USN, 
 DEPUTY COMMANDER NAVAL SYSTEMS ENGINEERING, NAVAL SEA SYSTEMS 
                        COMMAND (SEA 05)

    Admiral Eccles. Mr. Chairman, distinguished members of the 
subcommittee, thank you very much for this opportunity to 
testify on surface ship material readiness.
    My name is Rear Admiral Tom Eccles. I am here as the deputy 
commander for naval systems engineering, Naval Sea Systems 
Command. I am responsible for cradle-to-grave engineering 
support for naval ships and shipboard weapons systems. This 
includes research and development, establishment of design 
standards for new-construction ships, certification of new 
ships and ship systems, and lifecycle engineering for ships in 
service in the fleet.
    As Naval Sea Systems Command chief engineer, I am also the 
technical warranting authority responsible for applying 
statutory authorities delegated from the Secretary of the Navy 
to ensure the safe and effective operation of ships and ship 
systems. In that regard, I am responsible for the engineering 
aspects associated with the development of ship maintenance 
requirements. As chief technical authority, my staff monitors 
the effectiveness of ship maintenance processes and adjudicates 
critical variances and standards compliance issues.
    As naval technical authority, my organization is deeply 
dedicated to the success of the Surface Ship Lifecycle 
Management Activity mentioned by several of the other 
panelists. Other organizations also have roles in ship 
maintenance, including the regional maintenance centers, in-
service engineering agents, and planning yards. My staff has 
the necessary visibility and influence to ensure the proper 
exercise of technical authority within those organizations. We 
are keenly focused on outcomes that will ensure our current 
fleet ships will meet their expected service lives.
    We have teamed with the fleet to execute ship life 
assessment pilots that have the potential to give us an 
accurate picture of the health of each ship in the fleet. Those 
pilot programs will survey representative combatant surface 
ships of four types and develop pictures of the structural and 
distributed electrical and fluid systems conditions compared 
with our expectations for ships that will meet their intended 
service lives.
    We will assess the utility of this method for possible 
future application on all surface ships. The result I am 
looking for is an affordable and objective assessment tool that 
may be useful in providing the analytical basis for required 
maintenance investment to achieve expected service life. We 
believe that solid engineering and objective measurement are 
key elements of the plan to resolve our current challenges.
    Thank you, and we all look forward to your questions.
    [The joint statement of Admiral Eccles, Admiral Cullom, 
Admiral Campbell, and Admiral McManamon can be found in the 
Appendix on page 26.]
    Mr. Ortiz. Thank you so much for your testimony. And I know 
the committee has several questions for you.
    You know, for all the changes in maintenance and manning 
and training over the past decade or more, it may appear to 
some to be a series of discrete actions detached from recent 
incidents. To the Readiness Subcommittee, to our committee, the 
cumulative impact that they have had on ship material readiness 
appears anything but discrete.
    My question is, what impact has the reduction on 
intermediate maintenance shore infrastructure and the 
consolidation of technical competitiveness on the regional 
maintenance centers had on lifecycle sustainment of the surface 
fleet? And what impact has the reduction in ships' crew, 
including the removal of active-duty military from intermediate 
maintenance shore billets, had on ship sustainment in 
conjunction with reduction in shore infrastructure?
    And, to us, this is very, very important. And I know that 
we want to sing from the same page and we want to be of help to 
you. And, hopefully, maybe you can try to respond to at least 
those two questions that I have.
    Anybody who would like to lead off?
    Admiral Campbell. Yes, sir, I will take that question.
    In fact, the Navy has combined our intermediate maintenance 
activities into, as you mentioned, regional maintenance 
centers. Those regional maintenance centers are sized to 
accomplish the maintenance that we develop during our 
programming and budgeting process. And I believe that for the 
current amount of maintenance that exists in our class 
maintenance plans, those activities are adequately sized.
    We have taken sailor billets out of the shore maintenance 
infrastructure to some extent, not entirely. But we have also 
taken some of those sailors and moved them over to be part of 
the naval shipyard team, where they get the benefit from 
working closely with civilian journeymen and still will have 
that opportunity to learn while they are on shore duty in 
maintenance billets.
    Mr. Ortiz. Anybody else who would like to add anything?
    If not, I have another question. How does the Navy recover 
these lost assets, especially the wealth of experience gained 
by having sailors at the shore intermediate maintenance 
facilities who previously returned to their ships with the 
technical expertise they will share with junior sailors?
    Admiral Campbell. Well, again, I would say that, while not 
all sailors will have the opportunity to serve in an 
intermediate maintenance activity, a number still do.
    And then there is also the training aspects that I am not 
really able to address in much detail. But we still are sending 
sailors to ashore maintenance billets, where they have that 
opportunity to learn alongside the civilian journeymen.
    Mr. Ortiz. And I know, you know, at least those of us who 
have depots, maintenance depots, I would like to know about the 
impact of having some contractors do some of these jobs. Maybe 
you can elaborate a little bit on that. Is it working out?
    Admiral Campbell. Yes, sir, I would like to elaborate on 
that.
    I think the Navy takes fundamentally a three-level approach 
to maintenance. It is either a depot level, an intermediate 
level, or an organizational level; organizational level being 
the maintenance that is performed by the sailors on board the 
ships. Intermediate, as you have already mentioned in your 
earlier question, is done at the regional maintenance centers. 
And then depot, of course, is done, as you know, in the 
shipyards and other depots.
    The Navy has been combining intermediate- and depot-level 
maintenance. And that goes back to my earlier comment that that 
combination has brought sailors who used to be in the shore 
intermediate maintenance activities or on board tenders, many 
of those sailors now are at the depots, where they are working 
with those experienced civilian journeymen.
    Mr. Ortiz. I want to allow as many members to ask questions 
because we are going to be having a vote pretty soon.
    Randy.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, again, thank you for what you are doing. You know, one 
of the great things about this committee is it is probably one 
of the most bipartisan committees in Congress, and I trust 
every individual sitting in here to ask the same kinds of 
questions and do what we need to do for the national defense of 
this country.
    It is so important that we get answers to the questions 
that we need so we can move together as a team. While we are 
sitting here right now, North Korea is loading a rocket on its 
launch pad that many of us think could perhaps hit Alaska if 
they actually go through with that launch.
    I am concerned because, again, as I mentioned earlier, I 
see so many of the discussions from the people who have the 
information that we need to have to do the kind of oversight 
that we need to do who are being barred from even talking to 
us, as I read this nondisclosure agreement. And it says 
``predecision or otherwise.'' But when we talk about the state 
of our surface fleet, it is my understanding the Navy is now 
moving to a position where all the INSURV assessments are going 
to be classified. And if that is the case, I worry about how we 
are going to get the information that we need just to make sure 
we are making intelligent decisions to help you.
    And I am not asking you guys to address that, but I am just 
saying that is a concern that most of us have, if you will take 
that back.
    This committee, everybody that you see up here that was 
here during the last year, supported adding $120 million. The 
chairman got that into his mark for depot maintenance, and we 
lost that in the Senate and in conference, as you know.
    But as I understand, what we are talking about today--and 
if I am asking the question unfairly or I am not phrasing it 
the right way, correct me, because there is no intent to catch 
anybody here. I just want to get the information.
    As I understand it to get to the 313-ship Navy that many of 
us think is a floor--it is not the ceiling of where we want to 
go--we are dependent upon getting an extra five years out of 
the lifecycle of most of our platforms. At least that is the 
basis, I think, that we are working on.
    Is that a fair assessment, or am I wrong on that? Maybe I 
misunderstood the testimony.
    Admiral McManamon. Sir, I think in our most recent report 
to Congress OPNAV has asked the engineering community to look 
at the extension of up to five years on expected service life 
for a variety of the ship classes. So we are looking at that.
    Mr. Forbes. But don't we need to get five years? I mean, 
somebody had testimony that we are trying to get an extra five 
years out of the lifecycle of those platforms.
    Admiral McManamon. Yes, sir. Yes, sir.
    Mr. Forbes. And right now we are only at about 23 or 24 
years on most of our vessels. Is that a fair statement?
    Admiral McManamon. I think that is a fair statement. 
Obviously, each ship class has different maturity levels. And, 
obviously, the numbers of ships are----
    Mr. Forbes. And one of the things that of course concerns 
us--and I think we addressed it--is whether or not we even have 
an assessment that gives us a lifecycle assessment as to what 
we need for maintenance to get there. And I know we are doing 
some prototypes to hopefully get there, but we don't have that 
in play right now for the whole fleet, do we?
    Admiral Eccles. No, sir, we do not have that in play yet 
for the entire fleet. But we are moving out, and, in fact, 
today in the Cruiser Mobile Bay, there is a survey team of a 
number of surveyors who are under way with the ship. The 
CLASSRON and the commanding officer of the ship felt it was 
important that those surveyors in this pilot program have an 
opportunity to not only measure the ship and have the kind of 
full disclosure into structures and so forth that they are 
looking for, but to see the ship in action under way. So they 
have been doing that this week.
    Mr. Forbes. And one of the things that I understand, a lot 
of times before we actually do the INSURV, because we know when 
the INSURV is going to take place, we actually spend quite a 
sizable sum on that vessel before the INSURV takes place 
sometimes, to get it up to go through the inspection. Is that a 
fair statement?
    Admiral Campbell. Yes, sir. We recognized after STOUT and 
CHOSIN last year, with the results of those INSURVs, that the 
ships had not done adequate preparation for the in-depth 
inspection that the INSURV board performs. And so we did 
recognize the need to consider when the INSURV is actually 
scheduled in the ship's cycle and ensuring that the ship is 
ready for such a detailed inspection.
    The INSURV inspection occurs only every five years on these 
ships, and so not all ships' force sailors have had the 
opportunity on their current ship to have gone through an 
INSURV. And, therefore, it is necessary for them to do that 
kind of preparation before the board arrives.
    Mr. Forbes. I am going to wrap up my question so we can get 
to some other people before we go vote. But I am going to 
submit some written questions to you, and let me just tell you 
the scope of those.
    I don't even know--one, we may not get the INSURVs because 
they may be classified now. Second, if we get them, sometimes 
they are a little bit deceptive because we had spent a lot of 
money before the INSURV actually took place, you know, to get a 
full picture. But, as I understand it, we have a $417 million 
shortfall right now in our maintenance needs.
    And some of the questions I am just going to submit to you 
is, how much funding has the Navy requested in the 2009 
supplemental request to meet the year-end shortfalls and ship 
depot maintenance funding levels and whether or not that 
requirement will be funded, the total fiscal year 2009 
requirements for ship depot maintenance will be funded if 
Congress fully funds those amounts.
    But I have a series of other questions that I am going to 
just submit to you, if you don't mind responding to them, just 
so we can get a handle on how much money we actually need so 
that perhaps we can get these budgets where we want them to be 
to get the maintenance up to where we think it needs to be.
    Mr. Chairman, I will yield back my time now.
    Mr. Ortiz. Thank you.
    Now for questions I yield to my good friend from 
Mississippi, the chairman of the Seapower Subcommittee, Mr. 
Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Gentlemen, with what I guess is going to be a shift in the 
Navy to building more 51s and fewer 1,000s, what plans, if any, 
have you taken so that the first couple blocks of 51s--what are 
you going to do to modify them to keep them in the fleet as 
long as possible?
    The second thing is, given the delays in the LCS program, I 
spend too much time shaking my head at the early retirement of 
the Coastal Mine Hunters. I am told that the primary reason 
that you can retire in this fiberglass hull with less than 18 
years on them is because of the engine. I mean, why isn't 
someone just looking at putting a different engine in them and 
keeping them around at least until we have sufficient LCSs with 
their packages?
    And the third question would be, I noticed the--what was 
your budget for fuel in 2008? And what did you actually spend 
for fuel in 2008 on these surface combatants?
    Admiral McManamon. Yes, sir, I can easily talk a little bit 
about our DDG modernization program, which is under PMS-400 and 
surface combatants.
    And we have been working for approximately four years to 
plan the modernization plan for DDGs. And, in fact, we will be 
looking to start our first hull and mechanical engineering 
modernization for DDGs in 2010 and our combat systems in 2012. 
So Admiral Clark, before he left, actually started us to look 
down that. And, in fact, that was one of our big driving 
forces, knowing how long that ship class is going to be around 
for, to actually start looking now, right now today, at a 
modernization program for those DDGs.
    Our first ones are scheduled. We listened very carefully to 
the Congress. Our oldest DDGs are going in first. The Arleigh 
Burke and the John Paul Jones will be starting. And our entire 
plan there is to do Maritime Hull, Mechanical and Electrical 
(HM&E) and then combat system upgrades as we move forward, 
starting in 2010 and 2012.
    In terms of the engines----
    Mr. Taylor. If I may, those vessels were brought into the 
fleet in the late 1980's?
    Admiral McManamon. 1991 for Arleigh Burke, so she is----
    Mr. Taylor. So what----
    Admiral McManamon [continuing]. Right about the 17-year 
mark.
    When we looked at--Arleigh Burke, herself, will be right 
about 17, 18 as we move forward.
    Mr. Taylor. So what is the anticipated service life of the 
51?
    Admiral McManamon. Right now, the 51 was designed for a 35-
year service life, and we were asked to look, could we extend 
that 5 years to 40. And there is no--as long as we do the right 
maintenance and we do the right modernization, there is no 
technical reason why we cannot make 40 years for that ship 
hull.
    Mr. Taylor. Because, again, it really does gripe me that 
when the Block 1 cruisers were retired at less than 20 years, 
that was a terrible waste of the taxpayers' resource. And we 
just can't keep making those kinds of mistakes.
    Admiral McManamon. Yes, sir.
    In terms of your question in regards to the Mine Hunters 
and the engines, we are, also under our upgrade program, 
looking to see how we can best support the MCMs. We do have a 
look at the engine, and that was one of the big engine issues 
on whether we were going to reengineer, were we going to try to 
do a planned improvement program to that. And I will take that 
for the record to give----
    Mr. Taylor. Also, we have a hold on two MHEs that were 
going to be transferred.
    Admiral McManamon. Transferred, yes, sir.
    Mr. Taylor. And, again, we are only given so much of the 
taxpayers' treasure to try to put together a fleet, and it just 
doesn't make sense to retire something at 18 years, 
particularly with the LCS being as late as it is, and not look 
at putting a better engine in instead. So I wish you would get 
back to us on that.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Taylor. And on the fuel because, again, as is 
absolutely no secret, I am hard over that the next generation 
of cruisers should be nuclear-powered for a lot of reasons. I 
am just curious how much of that $417 million shortfall that 
you spoke of is because of fuel prices.
    Admiral Cullom. Sir, I will take that one.
    On the fuel prices, overall writ large for Navy, our fuel 
bill has varied between $1.7 billion, $1.8 billion up to $5 
billion, depending on the price that we are paying for fuel.
    For surface combatants exactly, I will go back and we will 
get you an exact figure for that and----
    Mr. Taylor. All right.
    Thank you, Mr. Chairman. I yield back my time.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Ortiz. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you very much, Mr. Chairman.
    I had a question about some of the problems that you are 
seeing in training now. And it used to be that the training was 
one-on-one, and now you are using more of self-directed 
computer and also person. And they said that is more cost-
effective but actually the result might not be as good.
    So could you address that, please? Do you have some 
concerns about the way we are training people? Are we relying 
too much on the automated and self-directed computer training 
versus the traditional way of apprenticeship, working under 
somebody actually showing how to do things?
    Admiral Cullom. For the automated training, we are probably 
not the right grouping of folks to ask on that question. We can 
certainly get back to you with a better answer for you 
specifically on----
    Ms. Shea-Porter. Okay, but you don't have a sense at all 
that this might be factoring in some of the problems that you 
are seeing, you know, some of the collisions that we have seen 
recently and----
    Admiral Cullom. I think Admiral McManamon might be able to 
answer----
    Admiral McManamon. Yes, ma'am. As part of--the Surface 
Warfare Enterprise also is very interested in that. And, in 
fact, at a couple of meetings over the last two years we 
actually set up one of our enterprise cross-functional teams to 
actually look very specifically at what was the impact of the 
computer-based training, because there was some deck-plate 
concern that perhaps we had moved too quickly in that.
    We will get back to you for the record the results of that 
study, but there was acknowledgment by the ships. And I think 
what we generally found was that there are some years that are 
very well-suited for the computer-based training and other 
areas that perhaps we needed some more hands-on on some of our 
junior sailors. And so we did look very carefully at that and 
the Commander Navy Surface Forces, in his enterprise hat, has 
asked us to look at it more carefully.
    But we will get back to you, ma'am, on the results and what 
we seem to be moving on there.
    Ms. Shea-Porter. I would appreciate that.
    Thank you, and I yield back.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Ortiz. Mr. Nye.
    Mr. Nye. Thank you, Mr. Chairman.
    First of all, I would like to thank all of our members here 
for their service. And we are all working toward the same goal 
here, in keeping our Navy and our fleet as ready as possible 
and as effective as possible and doing the missions that our 
country requires overseas.
    I am going to keep my questions short given the fact that 
we have a vote coming up, and I will submit additional 
questions in writing.
    But, first, a question for Admiral Cullom. Thank you for 
being here today. I want to note that in January of this year, 
the Navy announced its intention to home-port a nuclear carrier 
in Mayport, Florida.
    Given the fact that Mayport has, to date, never home ported 
a nuclear carrier, the fact that we have seen numbers, a $4.6 
billion shortfall in 2009 budget priorities, including $417 
million in ship maintenance and also $800 million in unfunded 
modernization and restoration for existing nuclear-capable 
shipyards, my question for you is: Is the infrastructure that 
would require what we estimate to be approaching a billion 
dollars of military construction (MILCON) investment at Mayport 
to put in place the same as that which is already available in 
Norfolk?
    Admiral Cullom. The Chief of Naval Operations and the 
Secretary of Defense have been talking about this issue, and it 
is under discussion and deliberation right now as to what is 
the best decision. And no decision has really been made at this 
point yet as to whether it should be done or not.
    Mr. Nye. Okay. So if I understand your answer correctly, 
this issue is still under review and no final decision has been 
put forth?
    Admiral Cullom. Yes, sir, that is correct.
    Mr. Nye. Okay. Well, let me just comment, it seems to me 
that if the facilities in Mayport would be equivalent to the 
ones in Norfolk, we are talking about some duplicative spending 
at a time when we are facing some serious budgetary shortfalls 
currently in terms of keeping our ships ready so they can do 
their missions overseas.
    One other question, I just wanted to follow up on something 
that my colleague Mr. Forbes said, a question for Admiral 
Campbell. I would also be very interested in seeing the results 
of your mid-year review. And I know you have said today you are 
still in the process of doing that review, and so you don't 
have the numbers available today.
    I would appreciate it, if it is possible, to follow up in 
writing to us and let us know what those numbers are if they 
are available. Also, how much you plan to request in terms of 
supplemental funding for the ship maintenance deficit.
    To be quite frank with you, I, along with I know a number 
of my colleagues, would be very happy to see a specific plan on 
how we are going to get to meet that shortfall. And, again, 
recognizing you are still under review right now, I would 
appreciate it if you could give us as much, in a written 
response, in terms of details of meeting that plan for 
immediate shortfall as possible. I would appreciate that.
    Thank you.
    Admiral Campbell. We will provide that to you, yes, sir.
    Mr. Nye. Thank you.
    [The information referred to can be found in the Appendix 
beginning on page 69.]
    Mr. Ortiz. Thank you so much.
    There are members that have other commitments, other 
meetings, and we have about 3 minutes for the next vote. I know 
a lot of members would like to submit questions for the record, 
and they will submit them to you. We don't want to keep you 
here any longer because we have votes and I know you have other 
things to do. But thank you very much for your testimony.
    And this hearing stands adjourned. Thank you.
    [Whereupon, at 3:08 p.m., the subcommittee was adjourned.]
=======================================================================


                            A P P E N D I X

                             March 25, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 25, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T9866.001
    
    [GRAPHIC] [TIFF OMITTED] T9866.002
    
    [GRAPHIC] [TIFF OMITTED] T9866.003
    
    [GRAPHIC] [TIFF OMITTED] T9866.004
    
    [GRAPHIC] [TIFF OMITTED] T9866.005
    
    [GRAPHIC] [TIFF OMITTED] T9866.006
    
    [GRAPHIC] [TIFF OMITTED] T9866.007
    
    [GRAPHIC] [TIFF OMITTED] T9866.008
    
    [GRAPHIC] [TIFF OMITTED] T9866.009
    
    [GRAPHIC] [TIFF OMITTED] T9866.010
    
    [GRAPHIC] [TIFF OMITTED] T9866.011
    
    [GRAPHIC] [TIFF OMITTED] T9866.012
    
    [GRAPHIC] [TIFF OMITTED] T9866.013
    
    [GRAPHIC] [TIFF OMITTED] T9866.014
    
    [GRAPHIC] [TIFF OMITTED] T9866.015
    
    [GRAPHIC] [TIFF OMITTED] T9866.016
    
    [GRAPHIC] [TIFF OMITTED] T9866.017
    
    [GRAPHIC] [TIFF OMITTED] T9866.018
    
    [GRAPHIC] [TIFF OMITTED] T9866.019
    
    [GRAPHIC] [TIFF OMITTED] T9866.020
    
    [GRAPHIC] [TIFF OMITTED] T9866.021
    
    [GRAPHIC] [TIFF OMITTED] T9866.022
    
    [GRAPHIC] [TIFF OMITTED] T9866.023
    
    [GRAPHIC] [TIFF OMITTED] T9866.024
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 25, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T9866.025
    
    [GRAPHIC] [TIFF OMITTED] T9866.026
    
    [GRAPHIC] [TIFF OMITTED] T9866.027
    
    [GRAPHIC] [TIFF OMITTED] T9866.028
    
    [GRAPHIC] [TIFF OMITTED] T9866.029
    
    [GRAPHIC] [TIFF OMITTED] T9866.030
    
    [GRAPHIC] [TIFF OMITTED] T9866.031
    
    [GRAPHIC] [TIFF OMITTED] T9866.032
    
    [GRAPHIC] [TIFF OMITTED] T9866.033
    
    [GRAPHIC] [TIFF OMITTED] T9866.034
    
    [GRAPHIC] [TIFF OMITTED] T9866.035
    
    [GRAPHIC] [TIFF OMITTED] T9866.036
    
    [GRAPHIC] [TIFF OMITTED] T9866.037
    
    [GRAPHIC] [TIFF OMITTED] T9866.038
    
    [GRAPHIC] [TIFF OMITTED] T9866.039
    
    [GRAPHIC] [TIFF OMITTED] T9866.040
    
    [GRAPHIC] [TIFF OMITTED] T9866.041
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 25, 2009

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. TAYLOR

    Admiral McManamon. A previous one-year test aboard two MCM 1 class 
ships demonstrated that the operational availability of the existing 
engines could be satisfactorily improved through a series of engine 
improvements. Test results showed engine operations in excess of 13,000 
hours with a 56% reduction in corrective maintenance when compared to 
the class average. There were minimal critical component failures and 
no catastrophic casualties. Most failures experienced were repairable 
on board with stocked parts.
    The Navy developed and executed a planned product improvement 
program as part of its maintenance and modernization program for the 
MCM 1 class Isotta-Fraschini engines. This program has demonstrated a 
15% increase in the operational availability of the existing engines. 
The following improvements were installed on all MCM 1 Class ships' 
Isotta-Fraschini main propulsion and ship's service diesel engines: 
improved cylinder heads, redesigned main bearings, improved cylinder 
liners, gallery cooled pistons, improved rings, as well as improved 
filter systems for combustion air, fuel oil and lube oil.
    Additionally, the Navy is conducting an AVENGER class MCM service 
life sustainability study. The study will determine the equipment/
systems requiring modernization to continue all 14 AVENGER-class MCMs 
in commission through 2030.
    The AVENGER-class MCM was designed for a 30 year life span. They 
are planned to decommission between 2017 and 2024. [See page 15.]
    Admiral Cullom. None of the $417 million ship depot maintenance 
shortfall is a result of fuel price changes. Maintenance and fuel are 
funded in separate budget line items. [See page 15.]
                                 ______
                                 
           RESPONSES TO QUESTION SUBMITTED BY MS. SHEA-PORTER
    Admiral McManamon. The Navy's training methodologies, 
organizational manning, and maintenance philosophy have all evolved 
over time. Within the training area, selection of specific training 
methodologies to optimize the learning transfer of the knowledge, 
skill, and/or ability (KSA) of the individual is a foundational part of 
the curriculum development process to create a Navy course. The 
resultant Blended Training Solution (combination of instructor lead 
training, lab training, computer-based training, simulation training, 
etc.) requires assessment if a Sailor's KSA's are not adequate to 
support the work assigned. Currently CBT accounts for 33% of training 
in Navy accession training schoolhouses; regular Training Requirement 
Reviews facilitate maintaining Navy courses to current Fleet 
requirements.
    There is great value in the effectiveness and efficiency of CBT. 
However, there is some concern that the pendulum has swung too far away 
from traditional schoolhouse based training and there needs to be a 
better balance between the two forms.
    The Navy is assessing if CBT is delivering the right prerequisite 
skills training and qualifications to our Sailors. The Center for Naval 
Analyses is reviewing the impact of CBT with a report due later this 
year. The Navy will take appropriate actions based on this report. [See 
page 16.]
                                 ______
                                 
               RESPONSES TO QUESTION SUBMITTED BY MR. NYE
    Admiral Campbell. The mid-year review of the FY09 unfunded 
requirement is still in progress and currently at the Commander, U.S. 
Fleet Forces/Commander, Pacific Fleet level. In mid-March 2009, the 
Office of the Assistant Secretary (FINANCIAL MANAGEMENT AND 
COMPTROLLER), provided guidance regarding the annual mid-year review of 
unfunded requirements for the Navy's Operation and Maintenance (O&M,N) 
accounts. All O&M,N appropriation holders were directed to follow the 
guidance to generate, evaluate, prioritize, mitigate and forward all 
additional requirements identified since the beginning of the current 
fiscal year. The chain of command will evaluate, prioritize and 
mitigate issues and forward all unresolved mid-year issues to the 
office of the Chief of Naval Operations (OPNAV) in the few weeks. OPNAV 
will decide how to address each unresolved unfunded issue and whether 
additional funds will be requested. Any modifications to the FY09 
initial ship maintenance shortfall will be made at that time. The 
several unplanned and unfunded requirements that DoN is currently 
addressing have rough order of magnitude (ROM) estimates and more 
thorough evaluations of the total cost of repair, required funding and 
plans of action are being conducted. As with the mid-year issues, these 
repair costs will be evaluated, prioritized and mitigated within the 
entire Navy program prior to any additional funds being requested 
outside of DoN. Fleet readiness remains one of the Navy's highest 
priorities and as such is receiving the highest level of attention from 
the Navy leadership. [See page 17.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 25, 2009

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. Extending ships' operational life beyond their expected 
service life addresses a shortfall in acquisition, while uncertainty 
about the ability to achieve the expected service life raises issues 
regarding shortfalls in maintenance and sustainment. The Navy has not 
technically articulated the maintenance requirement if it wants to keep 
its ships operating 30-45 years. How is the Navy assessing whether its 
ships will achieve their expected service life, and what is it doing to 
extend ship service life? What efforts are being undertaken to improve 
the capability of the ship's crew to do self-assessment of the ship's 
material condition? What benefits would derive from extending the ship 
life assessment pilot program beyond fiscal year 2009?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. Reaching ESL for our surface platforms is a key underpinning 
of the Navy's 30-year shipbuilding plan and our ability to reach a 
minimum 313-ship Navy. The Navy initiated four Surface Ship Life 
Assessment Pilots in FY09 to help determine the ability of a ship to 
meet its Expected Service Life (ESL).
    The Surface Ship Life Assessment pilots provide a solid analytical 
basis for making critical repair decisions in selected areas, and 
provide potential to build confidence that our surface ships can 
fulfill force-level requirements well into the future by assuring that 
they will remain effective warships for the full duration of their 
expected service life. This effort takes a best practice from industry 
and utilizes advanced finite element modeling techniques to provide a 
fully engineered view of the criticality of needed maintenance actions. 
NAVSEASYSCOM has currently undertaken four pilots: one on a DDG 51 
Class ship (USS COLE, DDG 67); one on a CG 47 Class ship (USS MOBILE 
BAY, CG 53); one on a LSD 41 class ship (USS GERMANTOWN, LSD 42); and, 
one on a FFG 7 Class ship (USS UNDERWOOD, FFG 36). To accomplish the 
pilots, NAVSEASYSCOM has teamed with the American Bureau of Shipping 
(ABS) which is the Classification Society that provides similar 
services for the commercial shipping industry. At the conclusion of the 
four pilots, the information gathered will be used for further study, 
analysis and possible incorporation into future life cycle management 
initiatives including ICMP tasks, new maintenance procedures and 
possible changes in our maintenance processes. The Navy will also use 
this information to decide how best to incorporate periodic engineering 
assessments into the maintenance planning sequence for each ship class. 
The benefit of extending the ship life assessment pilot program beyond 
FY09 is that more ships would be included in the process and receive an 
in-depth assessment of remaining ship life.

    Additional activities currently used to assess a ship's material 
condition are:

      <bullet>  Inspections and organizational level maintenance 
conducted by the ship's crew

      <bullet>  Integrated Class Maintenance Plan (ICMP) condition 
assessment tasks performed by Regional Maintenance Center personnel

      <bullet>  Board of Inspection and Survey (INSURV) chartered to 
survey ships to assess current material condition and warfighting 
readiness, including ability to support continued service (individual 
ships surveyed about every five years)

      <bullet>  Pre-Overhaul Tests & Inspections (POT&Is) performed on 
selected ship classes to better inform the work package development 
process

    Mr. Ortiz. Ship commanding officers often face the quandary of 
deciding whether to stay in a maintenance availability longer or opt 
not to do maintenance work and risk more work later, potentially at a 
premium price. Please explain the criticality of the class maintenance 
plan to service life sustainment and service life extension of non-
nuclear surface combatants such as cruisers and destroyers. How does 
engineered operating cycle versus a progressive maintenance plan affect 
service life?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. Prior to the 1980s, the Navy operated on a time-driven 
maintenance philosophy where equipment was overhauled to like-new 
status on fixed time intervals regardless of actual equipment material 
condition. Time-directed equipment overhauls were bundled into large, 
preplanned, and fully integrated complex ship overhauls. The approach 
was less than optimal in that equipment often did not need complete 
overhauls and equipment overhauls often induced subsequent equipment 
failures. Through the 1980s and 1990s, the Navy followed industry best 
practices and transitioned to condition based maintenance. Condition 
based maintenance was introduced through the phased maintenance program 
implemented on fast combat stores ships in order to improve operational 
availability and was later expanded to include amphibious and some 
surface combatant ship classes. Success of these and other programs led 
to Navy wide adoption of condition based maintenance for all ships and 
aircraft in 1998.
    Under a condition based maintenance philosophy, maintenance is 
performed based on objective evidence of need. Today, class maintenance 
plans consist predominantly of material condition assessment tasks and 
qualified repair tasks. Material condition assessment tasks objectively 
measure material condition and establish objective evidence of the need 
to accomplish specific corrective maintenance. Qualified repair tasks 
are screened, brokered to a maintenance availability, and executed 
based on the results of material condition assessments. Failure to 
properly execute class maintenance plans will lead to late detection of 
material condition discrepancies. Because most material condition 
discrepancies get worse over time, late detection of discrepancies 
leads to more costly subsequent repair and ultimately, higher cost to 
achieve intended service life.
    Accurate class maintenance plans and effective execution of class 
maintenance plan requirements are therefore absolutely essential to 
economical achievement of intended ship service life.
    Engineered operating cycle is a maintenance availability scheduling 
strategy where maintenance requirements are scheduled and grouped into 
large depot maintenance availabilities. The Engineered operating cycle 
strategy also allowed time for and tight integration with the extensive 
modernization efforts being implemented prior to the 1990s.
    Progressive maintenance planning refers to a number of maintenance 
scheduling and contracting strategies (e.g., Multi-Ship Multi-Option 
contracting and continuous maintenance). These strategies move most 
depot maintenance required over a ship's service life out of large 
availabilities. The maintenance is instead executed in shorter, more 
frequent depot maintenance availabilities (e.g., phased maintenance 
availabilities or selected restricted availabilities) or during 
operationally available times when the ship can be in a continuous 
maintenance availability without interfering with operational 
commitments through an equipment or component change-out program.
    For surface ships, progressive maintenance has a number of 
advantages over the engineered operating cycle strategy. Because 
progressive maintenance can be scheduled and executed during the 
shorter, more frequent maintenance availability periods, the length of 
time that material condition discrepancies are left uncorrected is 
minimized, allowing for less growth of material condition degradation 
and subsequent costs to repair. Because less maintenance is conducted 
during any one particular depot maintenance period, availabilities are 
less complicated, take up a smaller percentage of the operating cycle, 
incur less depot overhead costs and are less likely to go over budget 
or off schedule.
    However, there are two disadvantages to the progressive maintenance 
strategy. Maintenance planning can be more difficult under progressive 
maintenance because availabilities are shorter, and short maintenance 
period overruns can impact operational commitments. Additionally, 
because equipment is not routinely brought back to the more expensive 
``like new'' post-overhauled condition, progressive maintenance may 
entail slightly greater per ship operational risk associated with 
successfully achieving intended service life.
    Mr. Ortiz. How confident are you, in a constrained funding 
environment and in light of anticipated decreases in defense funding in 
FY10 and beyond, that sufficient funding, manpower, and technical 
support can be provided for SEA 21 to provide full-spectrum lifecycle 
management and to the Surface Ship Life Cycle Management (SSLCM) 
Activity to assess and manage maintenance requirements?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Navy will formally stand up the Surface Ship Life Cycle 
Management (SSLCM) Activity in May 2009 under the Deputy Commander for 
Surface Warfare (SEA 21).
    Partnering with U.S. Fleet Forces Command, the SSLCM Activity will 
assess and manage the maintenance requirements throughout the life 
cycle of ships in the surface fleet, in order to better plan and budget 
for long-term maintenance needs. The SSLCM Activity is planned as a 
long-term improvement to surface ship maintenance and is being 
addressed in the President's Budget submission so it can be 
appropriately resourced, balancing the competing requirements of ship 
operations, maintenance and modernization.
    Mr. Ortiz. In Commander Naval Surface Forces' comprehensive review 
of surface ships' overall readiness, what readiness factors were 
reviewed, what stressors did the review find, and what course 
corrections were found to be needed?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. In an effort to determine if systemic support problems 
existed, CNSF conducted a comprehensive review of overall surface ships 
readiness. Known as the ``Take a Fix'' round of readiness briefs 
(Autumn 2008), CNSF assessed and reported on all readiness factors 
(maintenance, supply, training and personnel) across the Force.
    In the area of maintenance, three gaps or stressors were 
identified: (1) Strategy and organization. The long-range, lifecycle 
maintenance planning function for surface ships was missing. Submarines 
and aircraft carrier lifecycle maintenance is guided by two dedicated 
organizations (Submarine Maintenance Engineering, Planning and 
Procurement Activity (SUBMEPP), and Carrier Planning Activity (CPA)) 
who build long-range lifecycle maintenance plans based on engineered, 
task-level maintenance requirements. An equivalent organization does 
not exist for surface ships. This lack of centralized surface ship 
lifecycle management, coupled with a condition-based repair philosophy, 
limits the ability to accurately forecast maintenance requirements and 
translate them into credible budget requests. The Surface Ship 
Lifecycle Management (SSLCM) Activity of NAVSEA 21 will be established 
(8 May 2009) as the activity responsible for this long-range, lifecycle 
maintenance management. NAVSEA 05 (Systems Engineering) is responsible 
to validate and approve the underlying engineering requirements and 
associated maintenance tasks that deliver the planned service life of 
shipboard systems.
    (2) Measurements. An accurate measurement of the current ship 
maintenance backlog (both planned and deferred work), and its 
associated cost, is needed as an input to the maintenance requirements 
development process. A measurement technique does exist to measure and 
capture this information (``unfunded technical requirement'', UTR), but 
requires strengthening of the underlying current ships maintenance 
package (CSMP) input. OPNAV N43 and NAVSEA 04 have developed the UTR 
technique; CNSF, through their ``Back to Basics'' campaign, is seeking 
to improve the inputs to the CSMP, which will then improve the UTR 
measurement.
    (3) Tools and processes. Each surface ship class maintenance 
strategy should be guided by a technical foundation paper (high-level 
maintenance strategy), which provides assumptions and boundaries for 
the Integrated Class Maintenance Plan (ICMP). The ICMP is a task-by-
task listing of engineered maintenance requirements needed over the 
planned service life to maintain prescribed engineering standards and 
system technical attributes. ICMPs are then ``filtered'' into class-
standard Baseline Availability Work Packages (BAWP), which guide 
notional availability planning. Each ship then combines ICMP tasks in 
the BAWP with ship-specific corrective maintenance actions to form the 
ship- and availability-specific Availability Work Packages (AWPs). The 
SSLCM Activity of NAVSEA 21 is responsible for the development of these 
tools and processes. They will work with the Ship Class Squadrons 
(CLASSRONS), who will be the ship-specific executive agents for BAWPs 
and AWPs.
    Residual supply storeroom shortfalls have been experienced as a 
result of funding constraints experienced during FY08 and FY09. The 
relaxation of 100% on hand/on order TYCOM policy for parts was 
necessary to support the substantial decrease in funding levels. 
Although the aggregate range/depth percentages still remain above TYCOM 
goals, potential exists for a ``bow wave'' of parts should the 
requisitioning of material requirements be restored to normal 
parameters. CNSF continues to monitor range/depth percentages across 
the Force on a daily basis to ensure no severe degradation in logistics 
readiness occurs.
    In the area of training, Afloat Training Group (ATG) has had a 
difficult time keeping up with the training requirements for the fleet. 
They are fully capable of providing effective training however, manning 
reductions have limited their capacity to match every ship's schedule. 
The fleet has relied on more computer based training (CBT) and the ATRC 
waterfront detachment was disestablished. Numbered Fleet Commander 
(NFC) tasking during Basic Phase, Component Commander's (COCOM) Request 
For Forces (RFF) make it difficult for ATG and the ship to provide and 
receive effective training.
    Corrective actions included establishing a Surface Warfare Officer 
(SWO) introduction course on the waterfront. Engineman career 
progression was reviewed and the formal training curriculum is being 
revised. A Anti Submarine Warfare Officer (ASWO) Course and an 
Engineering Readiness Assist Team (ERAT) was established. Initiatives 
are in progress with Naval Education and Training Command (NETC) and 
Surface Warfare Officer School (SWOS) to bring back the Senior Officer 
Ship Material readiness Course (SOSMRC). ATG Limited Team Training 
(LTT) procedures were changed to stress less on assessment and more on 
training by ATG. Main battery Non-Combatant Expenditure Allocation 
(NCEA) was increased to improve gun systems readiness (INSURV finding). 
A two-phase Shipboard Training Team course to better prepare ships for 
the Basic Phase of the Fleet Response Training Plan to include Combat 
Systems and Engineering LTT visits was instituted. In addition, revised 
USW continuous certification requirements were implemented with 
emphasis on external assessment and resources. A16-week Basic Phase and 
increased Maintenance Phase entitlement was codifed in the revised 
Fleet Training Continuum (FTC) (USFF instruction approval pending) as 
part of an increased emphasis on basic level surface platform training 
and performance.
    In the area of personnel, a myriad of manpower decisions were made 
independently across a number of years resulting in a synergistic 
negative impact on shipboard manpower and manning. Optimal Manning (OM) 
concept, which applied to most ship classes, compounded by several 
extremely difficult POM cycles (POM 08/10) reduced manpower even 
further. The reduction in manpower on the FFG 7 class was the result of 
POM 08 required fiscal balancing. In addition, OPNAV's directed ``Top 6 
Alignment,'' though it did not reduce overall manpower on ships, it did 
reduce the pay grade of the billets and the associated personnel with 
the unintended consequence of reducing experience level, a significant 
impact to units with already reduced or Optimal Manning. Finally, the 
Navy Individual Augmentation program to support the Overseas 
Contingency Operations continues to reduce the available manning for 
ships.
    Corrective actions taken include a PR09 issue to fund additional 
enlisted billets on DDGs, and a PR11 issue submitted to refund billets 
on FFG 7s to support a revised Required Operations Capabilities (ROC)/
Projected Operational Environment (POE) which will require the ships to 
be capable of full multi-mission operations. Additionally, action has 
been taken to support imminently deploying ships through the 
reassignment of personnel from future deploying units to those 
deploying within the next several months to ensure ships are fully 
manned to meet deployment requirements. This action resulted in the 
degradation of the manning level for some ships.
    Mr. Ortiz. The Aegis Program Executive Office PEO was involved in 
the full life of that ship, from design to development of training for 
sailors and life-cycle maintenance. What has the Navy learned from the 
Aegis experience about life-cycle sustainment and how can those lessons 
be applied to improve the life expectancy of other ship classes?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. Initial design of Aegis Cruisers and Destroyers included 
life-cycle sustainment as an overall design factor. The entire Aegis 
concept included a detailed systems engineered approach to meeting the 
mission of the ship. Organizations charged with sustaining these 
platforms over their lifecycle were integral participants in the design 
of the Aegis Combat System (ACS) and the platforms on which it is 
employed. This involvement during initial design and follow on 
improvements has resulted in a team of engineers, technicians and 
trainers who are better prepared to support these ships. The Aegis 
program was a complete ``Cradle to Grave'' organization that integrated 
HME, Combat Systems, Training, Logistics, In-Service support and 
modernization and upgrades. This expertise was transitioned to the 
homeports in support of in-service cruisers and destroyers with the 
Combatant Homeport Engineering Teams (CHET) and the Aegis Modernization 
Test Teams (AMTT) including a strong building yard planning yard 
component. These organizations, and headquarters commands, were 
constructed to allow continuous feedback which has proven instrumental 
in applying lessons learned from Fleet operations through both the 
iterative improvement to cruisers and destroyers during the 
construction process and in developing their mid-life upgrades. The 
mid-life upgrades of the modernization programs allow for further 
sustainment of these ships and enable the achievement of a 35 year 
expected service life in support of the Navy's 313 ship requirement.
    It is the intent of the Navy to apply many of the lessons learned 
in sustaining the Aegis Cruisers and Destroyers to other surface ships. 
In order to facilitate application of these lessons, and those obtained 
from other platforms, the Naval Sea Systems Command established the 
Deputy Commander for Surface Warfare (SEA-21). SEA-21 provides the 
Fleet with an organization focused toward sustainment of the surface 
force. This organization is further partnered with PEO SHIPS, forming 
Team Ships, to continue the tradition of including lifecycle 
sustainment as a primary factor in the ship design and construction 
process as the Navy introduces new platforms and capabilities to the 
Fleet. The Navy's Surface Ship Lifecycle Management (SSLCM) Activity 
will take full advantage of the existing stakeholders (Program 
Manager's Representatives, Engineering Field Representatives, Planning 
Yard representatives, etc. to apply best practices to ensure that every 
surface ship meets its expected design life.
    Mr. Ortiz. Your testimony states that ``a key tenet of our ability 
to maintain forward-deployed and surge-ready naval forces is the proper 
resourcing, planning and execution of maintenance needed to prepare and 
sustain our ships. The same testimony states that Fleet Response Plan, 
``when fully funded,'' enables the Navy to continuously deploy three 
Carrier Strike Groups to points around the globe, surge three more in 
30 days and deploy a seventh in 90s days.'' What happens when 
sufficient resources are not found and accounts are not fully funded?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. If sufficient resources are not found, the Navy will be 
required to balance the risk between the operating, maintenance, and 
procurement accounts in a manner that takes into account the short term 
risks of not meeting current operational demands with the longer term 
risks of either not meeting expected service life or recapitalizing our 
ships and aircraft.
    Mr. Ortiz. Your testimony states ``A well established process 
exists to identify and program the resources required for ship 
maintenance,'' yet it also states that ``one of the greatest obstacles 
to the surface fleet's ability to articulate the 100% maintenance 
requirement necessary to reach expected service life'' is the lack of a 
detailed surface ship class maintenance plan. What steps is the Navy 
taking to bring greater rigor to the surface fleet maintenance 
requirements process and to ensure that these requirements are fully 
resourced?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Navy is taking several steps to bring greater rigor to 
the surface fleet maintenance requirements. These include:

      <bullet>  Establishment of SEA 21 as the full spectrum life cycle 
manager for surface ship readiness

      <bullet>  The creation of the Surface Ship Life Cycle Maintenance 
Activity (SSCLMA) to manage and improve class maintenance plans and 
create more accurate baseline availability work packages

      <bullet>  Establishment of technical redlines for surface ships 
for NAVSEA 05 similar to those that exist on submarines and aircraft 
carriers

      <bullet>  Conducting a bottom up review of surface ship class 
maintenance plan to ensure the 100% technical requirement required to 
meet expected service life is embedded in the our ship class 
maintenance plans

      <bullet>  In conjuction with the American Bureau of Shipping 
(ABS), conducting a pilot program to survey a ship from each of four 
major ship classes to establish baseline material conditions for use in 
building future class maintenance plans

    The Navy will continue to take a balanced approach that manages the 
risk to our operational, maintenance and procurement accounts to meet 
both current and future readiness demands in light of current fiscal 
constraints.
    Mr. Ortiz. If only five weeks of a nine-week depot availability 
involves ``real wrench turning,'' what will need to be done to get more 
time in depot for surface combatant ships? Does the Navy have 
sufficient infrastructure, manpower and funding to increase that time 
to 15-16 weeks? How can the Navy meet its FRP requirements with 
extended depot time?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The current notional Fleet Response Plan (FRP) cycle for 
surface ships is 27 months in duration: 9 week (2 months) maintenance 
availability, 4 months Basic Phase training, and 3 months Integrated 
Phase training, which generates 18 months (67%) where a unit is 
employable (available for tasking).
    Extending maintenance period to a 15-16 week maintenance 
availability (approximately 4 months), while maintaining the notional 
training cycle and timelines, leaves 16 months (59%) where a unit is 
employable. Aggregating this change across the surface force structure 
and making minor schedule changes, the Navy would still be able to meet 
the most stressful operational plan (OPLAN) requirements, and the 
SECDEF approved Global Force Management Allocation Plan (GFMAP) 
presence requirements.
    With respect to maintenance infrastructure, most surface ship 
maintenance is sourced from the private sector which has demonstrated 
significant expansion capabilities. As for manpower and funding 
impacts, current maintenance execution practice involves assignment of 
a funded 2-4 week continuous maintenance availability (CMAVs) prior to 
and/or following the scheduled CNO availability. These CMAVs enable the 
start of funded depot repair work (tank cleaning and gas freeing, 
interference lay-out and removal, open-and-inspection), as well as 
preliminary alteration production work. Thus, a nine-week CNO 
availability was, from a funding allocation perspective, essentially a 
12-16 week availability.
    Mr. Ortiz. Your testimony states operational tempo for Navy surface 
combatants has increased 19% since 2000. While maintenance and ship 
operating budgets also have increased, the focus of those additional 
maintenance dollars were aimed at near-term ship readiness, making the 
surface fleet much more susceptible to changes in optempo. Is the Navy 
funding the maintenance it needs or doing the maintenance it has 
funding for? When you look at the sharp rise in operational 
availability and the slight rise in maintenance funding, are we funding 
short-term readiness gains in operational availability at the expense 
of maintenance required to fund long-term readiness?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Navy is funding the maintenance it needs. In the case of 
Aircraft Carriers and Submarines, we have a proven process that has 
allowed us to fully articulate and fund the 100% technical requirement 
needed to fund both short-term and long-term readiness to ensure these 
ships reach their expected service life. While surface ship maintenance 
has also been funded near 100% of the stated surface ship maintenance 
requirement, our process for accurately identifying that specific 100% 
technical requirement was lacking. Our planning requires specific 
improvements. To that end, the Navy is taking several steps to bring 
greater rigor to the surface fleet maintenance requirements. These 
include:

      <bullet>  Establishment of SEA 21 as the full spectrum life cycle 
manager for surface ship readiness

      <bullet>  Stand up, under SEA 21, of the Surface Ship Life Cycle 
Maintenance Activity (SSCLMA) to manage and improve class maintenance 
plans and build baseline availability work packages

      <bullet>  Establishment of technical redlines for surface ships 
for NAVSEA 05 similar to those that exist on submarines and aircraft 
carriers

      <bullet>  Conducting a bottom up review of surface ship class 
maintenance plan to ensure the 100% technical requirement required to 
meet expected service life is embedded in the our ship class 
maintenance plans

      <bullet>  With the American Bureau of Shipping (ABS), conducting 
a pilot program to survey a ship from each of four major ship classes 
to establish baseline material conditions for use in building future 
class maintenance plans

    Once properly established, the 100% technical requirement will 
allow surface ship maintenance to compete on a level playing field with 
other Navy requirements for funding. The Navy will take a balanced 
approach that manages the risk to our operational, maintenance and 
procurement accounts to meet both current and future readiness demands.
    Mr. Ortiz. In Commander Naval Surface Forces' Surface Ship 
Maintenance Strategic Offsite, what gaps were identified in the surface 
ship maintenance program?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. Gaps identified were primarily process gaps in work package 
development and strengthening the technical foundation for work to be 
accomplished or deferred during surface ship maintenance 
availabilities.
    Comparable organizations such as the Submarine Maintenance 
Engineering, Planning and Procurement Activity (SUBMEPP) or Carrier 
Planning Activity (CPA) equivalent do not exist for surface ships. This 
lack of centralized surface ship life cycle management coupled with the 
current condition based repair model stresses the ability to accurately 
forecast maintenance requirements and translate them to budget 
requests. An accurate assessment of the current ship maintenance 
backlog, and its cost, has to be developed. Each surface ship class 
needed to have a specific Baseline Availability Work Package (BAWP) and 
a coordinated Integrated Class Maintenance Plan (ICMP). Ship Class 
Squadrons (CLASSRONS) did not have the tool necessary to help manage 
the Availability Work Package (AWP) to establish an accurate cost and 
schedule baseline for each availability. Notional availabilities were 
inaccurate and did not reflect actual cost and schedule return data.
    As part of a holistic effort, three key organizations were tasked 
to improve overall surface ship maintenance execution.

    1.  CLASSRON's are responsible for development of baseline and 
final Availability Work Packages (AWPs) and inclusion of Integrated 
Class Maintenance Program (ICMP) work items in appropriate 
availabilities.

    2.  NAVSEA 21 is responsible for development and management of the 
ICMP. Additionally, NAVSEA 21 will establish the Surface Ship life 
Cycle Maintenance (SSLCM) Activity in May 2009.

    3.  NAVSEA 05 (Systems Engineering) is responsible for validating 
technical content of the ICMP, for adjudicating all deferral requests 
and for providing engineering support to SEA 21.

    Mr. Ortiz. What are the timelines for completing the integrated 
class maintenance plans for each class of surface ships? When will the 
Navy complete the review of its process for recroding and report the 
surface ship maintenance unfunded technical requirement (UTR). Please 
provide for the record the UTR for surface ship maintenance each year 
since fiscal year 2000.
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. Integrated class maintenance plans currently exist for every 
surface ship class. However the Navy is conducting a bottom up review 
to ensure they are complete and technically accurate. The Navy expects 
to complete this review in late fiscal year 2010. Conducting a bottom 
up review of surface ship class maintenance plans will ensure the 
technical requirement required to meet expected service life is 
embedded in ship class maintenance plans. Once established, the 
technical requirement will allow surface ship maintenance to compete 
with other Navy requirements for funding. The Navy will take a balanced 
approach that manages the risk to our operational, maintenance and 
procurement accounts to meet both current and future readiness demands.
    The Navy calculates the surface ship maintenance unfunded technical 
requirement (UTR) for the previous fiscal year at the beginning of the 
next fiscal year. The UTR identifies future budget requirements for 
maintenance work that was not performed. UTRs are planning tools used 
to identify needed maintenance work and associated costs in order to 
avoid future operational impacts or mission effectiveness of performing 
maintenance at a later date. For example, FY08 UTR was calculated on 
October 1, 2008, the beginning of FY09. This year's UTR will be 
calculated on October 1, 2009, at the beginning of FY10. The UTR 
process is reviewed annually at the time of calculation to ensure it is 
aligned with current Navy practices and desires. Slight adjustments are 
typically made to the process; however, a complete change has not 
occurred since 2001.
    Table 1 contains the surface ship unfunded technical requirement 
(UTR) for fiscal years 2001-2008 (POM04-PR11). UTR is expressed as the 
average for a single ship in the class in man-days to remove effects of 
inflation and location. UTR values are affected by ships' operational 
availability and individual funding levels. Table 1 reflects 
supplemental funding received in FY03-FY05 to reduce maintenance 
backlog.
    UTR as a concept was introduced to the surface community in FY00. 
The UTR calculation method was significantly revised in 2001. These 
changes made UTR comparisons prior to 2001 invalid. The following steps 
were added in 2001:

      -  Work must be identified prior to the start of an availability 
to ensure the opportunity exists to provide funding.

      -  Service jobs inherent to availabilities are not considered.

      -  All jobs are reviewed for validity using reliability-centered 
maintenance practices. Therefore, jobs not integral to the mission, 
safety, or structural integrity of the ship are removed. This typically 
accounts for 1% of the jobs considered for UTR.

    Beginning in FY06, a UTR business rule was added for classes that 
had no depot availability period during a single fiscal year. For 
classes with no availabilities during a fiscal year, the last valid UTR 
is carried forward. This business rule has been applied twice: LHD-1 
Class in FY07 and LHA-1 Class in FY08.
    The following classes do not have UTR calculated for all years 
FY01-FY08: DD-963 Class and PC-1 Class. Responsibility for calculating 
UTR and representative availabilities for the PC-1 Class was assumed by 
the Maintenance Resource System in FY05. Prior to that year, UTR data 
was not collected for PC-1. UTR was no longer calculated for the DD-963 
Class following the final depot availability in FY04. DD-963 Class 
decommissioned (decom) in FY05.

                                                     Table 1
                                      Average Surface Ship UTR in Man-Days
                                                   FY01--FY08

                             FY01       FY02       FY03       FY04       FY05       FY06       FY07       FY08
----------------------------------------------------------------------------------------------------------------
CG-47                     1,808      890        204        82         760        380        410        849
DD-963                    1,458      879        855        Decom      N/A        N/A        N/A        N/A
DDG-51                    1,733      691        350        173        480        147        364        599
FFG-7                     731        589        36         45         223        302        490        687
LHA-1                     11,233     400        0          114        26         1,164      1,734      1,734
LHD-1                     4,993      2459       666        0          980        755        755        3,379
LPD-4                     3,038      347        0          1657       81         715        650        423
LPD-17                    2,430      1007       323        101        1006       612        972        913
MCM-1                     70         3          17         5          43         94         30         112
PC-1                      N/A        N/A        N/A        N/A        338        2          0          0
----------------------------------------------------------------------------------------------------------------


    Mr. Ortiz. Your testimony states that ``Port engineers'' who work 
for the [Regional Maintenance Centers] are the professional advisors of 
each ship's maintenance team. What issues is the Navy experiencing in 
regard to recruitment and retention of qualified port engineers?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Navy is not experiencing any problems with recruitments 
or retention of Port Engineers. The current contract structure allows 
for greater flexibility in attracting qualified contracted Port 
Engineers. The strategy for attracting qualified candidates utilizes 
maritime trade magazines, direct interface with Maritime Academy Job 
Boards and Industry word of mouth to find qualified Port Engineers. 
Currently the 5 Maritime Academies being utilized are Maine, 
Massachusetts, New York, Kings Point and California. Based on contract 
requirements we are able to promptly find the right blend of experience 
and education in recruiting potential candidates. Surface Forces 
currently employs 114 port engineers in a mix of government civil 
service and contracted personnel. The current average retention for 
this aggregate community of Port Engineers is 10.64 years.
    Mr. Ortiz. How do multi-ship, multi-option (MSMO) maintenance 
contracts contribute to achieving or extending ship expected service 
life? What steps is the Navy taking to resolve the difficulties it has 
experienced in successfully awarding MSMO contracts on the East Coast?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. Multi-Ship Multi-Option (MSMO) contract vehicles for ship 
maintenance, modernization, and repair within homeport areas maximize 
the ship's operational availability and surge readiness, minimize the 
disruption in the quality of life of the ship's crew, and provide 
potential for learning curve cost reductions. They form the cornerstone 
of Navy Fleet Maintenance and Modernization strategy for surface ships. 
Proper maintenance and modernization programs, such as the Cruiser and 
Destroyer Modernization programs, ensure our ships achieve their 
expected service life.
    There has been an extensive assessment of the Navy's MSMO 
contracting process and Navy continues to work with Industry to improve 
the MSMO contracting process. The Navy has made the following 
commitments and improvements:

    (1)  MSMO processes have been revised to capitalize on previous 
availabilities and repair work to improve Notional Work Package (NWP) 
relevance and Independent Government Estimate (IGE) accuracy. 
Specifically, historical data from previous CNO Availabilities, 
Continuing Maintenance (CM), and Emergency Maintenance (EM) periods for 
each ship class will be used to identify common work items for each 
ship class. Those common items will be used to develop the NWP included 
in the solicitation. In addition, historical cost data for those common 
work items will be utilized to formulate the IGE. These changes will 
provide credible, accurate data that will be the building blocks of 
future MSMO solicitations.

    (2)  The MSMO post-award debriefing process has also been revised 
to provide to each bidder greater detail of the Government's analysis 
of its proposal. This expanded debriefing format will provide each 
bidder with an in-depth review of the Government's evaluation of its 
cost and technical proposals, with the goal of an improved bidder 
understanding of shortcomings in its proposal that can, in turn, help 
the bidder improve its competitiveness for future MSMO contract awards. 
This expanded format has been successfully piloted; a debriefing 
``template'' is under development to standardize this approach.

    (3)  The Navy will publish the upcoming MSMO solicitation and 
contract award schedule in an earlier and more predictable manner. This 
will provide our Industry Partners with timely information to plan 
their resource allocation and to establish teaming arrangements, all of 
which will enhance the competitive marketplace for the benefit of all 
parties.

    (4)  In accordance with FAR 15.201, the Navy conducted a ``MSMO 
Industry Day'' in Norfolk, VA. In an effort to increase transparency, 
NAVSEA discussed the MSMO process and engaged with industry on feedback 
for process refinements. To further communicate the Navy's improvements 
to the MSMO strategy, a follow-on Industry Day is scheduled for April 
22, 2009, at the Washington Navy Yard.

    Mr. Ortiz. One of the three things your testimony cites as early 
signs that surface ship material readiness is being impacted is the 
current process for executing maintenance. What examination have you 
made regarding how reductions in ship manning and ashore maintenance 
billets, and changes in crew training in apprentice and journeyman 
technician schools, onboard ship, and through reduced shore 
intermediate maintenance facilities is having on ship material 
readiness?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. We are continuing to examine the impact of manpower and 
training changes to ship material readiness. Surface ship manpower 
reductions have occurred since 2003 for various reasons, including cost 
savings, policy changes (e.g. elimination of visual signaling 
requirement and consolidation of Boatswain's Mate of the Watch with 
Quartermaster of the Watch) and technological advances (SmartShip 
installs and moving most Pay and Personnel functions ashore). Ship 
class manpower cuts since 2003 until 2008 are as follows:



 

CG                        13%

DDG                       13-15% (dependent on flight)

FFG                       11%

LHA                       06%

LHD                       10%

LSD                       04%

LPD-4                     05%



    Optimal Manning determines the minimum quantity and quality of 
personnel required to operate ships in both Condition I (general 
quarters) and Condition III (wartime steaming, maintained for 60 days). 
Ship classes with manpower requirements determined using optimal 
manning initiatives are funded at 100 percent of the number of required 
billets. One-hundred percent manning has not been consistently met due, 
in part, to the number of personnel assigned as individual augmentees, 
including those in post IA deployment dwell time. While on board 
manning is less than optimal, the overwhelming majority of ships are 
succeeding at these manning levels. Ships with good leadership who 
adhere to Navy's material maintenance program have fared well during 
INSURV inspections. The Center for Naval Analysis (CNA) is conducting a 
study to better quantify the effect optimal maiming has on the combat 
readiness of ships, with an expected completion in June 2009. We 
continue to assess our manning levels and will adjust as necessary.
    Computer Based Training (CBT) is a significant component of 
apprenticeship training. Consequently new recruits receive less 
classroom and hands-on training. As with the legacy training construct, 
the Revolution in Training relies heavily on utilizing experience 
levels on board ship to provide oversight to the new recruit. However, 
total training has not been significantly reduced between 2003 and 
2009. The average recruit reaching the fleet in 2003 received 282 days 
of training, versus 275 in 2009 (a 2.5 percent decrease). Some schools 
were significantly shortened. For example, the training pipeline for a 
Gas Systems Turbine Technician was reduced from 355 days to 290 days; 
however, we increased the number of Sailors reporting to their commands 
having completed Class ``A'' School. The percentage of unrated firemen 
reaching the fleet declined from 4.8 percent in 2004 to 0.3 percent in 
2009. Likewise, the percentage of unrated Seamen declined from 16 
percent to 8 percent during the same period.
    The journeyman level technician is critical to equipment readiness. 
The technical training associated with Navy's Journeyman, or Class 
``C'', schools, regardless of method of delivery, has not resulted in 
less prepared Sailors. The curriculum comprising Class ``C'' school 
training delivered via CBT has remained largely unchanged, unless 
modification is required by acquisition of new capabilities or 
equipment. Regular training requirement reviews facilitate maintaining 
course content designed to meet Fleet requirements.
    Historically, Shore Intermediate Maintenance Activities (SIMAs) and 
Fleet Technical Support Centers (FTSCs) permitted active duty 
technicians to continue honing their technical skills in repairing 
ships while assigned to shore duty. This better prepared them to 
perform ship repairs upon returning to sea duty. As an efficiency 
measure, Fleet Forces Command requested that 2200 SIMA billets, in 
excess of sea-shore rotation requirements, as well as FTSC billets, be 
converted to civilian performance. Completed in fiscal year 2008, this 
initiative established a more proficient and lower cost workforce to 
provide intermediate level ship maintenance, but reduced opportunities 
for Sailors to learn journeyman level skills. Approximately $250 
million in realized savings was transferred from the Military 
Personnel, Navy (MP,N) account to Type Commander continuous maintenance 
to support the reduced capacity. Material degradations and rising costs 
due to increases in contracted maintenance have quickly outpaced the 
realized savings. Reductions in manning, along with reduced experience 
levels of technicians, have resulted in a situation in which the ships 
are challenged to train newly arriving personnel to an acceptable 
proficiency level. The Navy Inspector General (IG) is currently 
conducting an investigation into determining if CBT delivers 
appropriate levels of prerequisite skills training and qualifications 
for our Sailors. When the Navy IG completes the investigation and 
releases the findings, CNSF, with all surface ship providers, will take 
appropriate actions to rectify any indentified short-comings.
    In addition to the factors above, increased Operational Tempo 
presents the greatest challenge with respect to readiness. Since 9/11, 
the Navy OPTEMPO has increased by approximately 8%, and OPTEMPO for our 
surface combatants is up by 18%. We are examining the initiatives and 
policy changes discussed above and see that each change had a valid 
reason, at the time, in terms of improved efficiency and cost savings. 
As we continue our pursuit of identifying the root causes of the 
material readiness decline, we will make any necessary resource 
adjustments.
    Mr. Ortiz. Chief of Naval Operations Admiral Gary Roughead has 
stated that a crew of 40 people will not be enough to maintain the 
Littoral Combat Ship through its lifecycle. Manning and maintenance 
requirements are not defined adequately in the LCS interim support 
plan. What is the life-cycle support strategy for LCS? What work will 
be done in the private and public sectors?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Littoral Combat Ship (LCS) is a class of ship that does 
not conform to the legacy process used on earlier generation ships 
since the manning is reduced, coupled with a high level of automation, 
with much of the support, including maintenance functions, accomplished 
ashore.
    Although the USS FREEDOM (LCS 1), built by a team led by Lockheed 
Martin, and INDEPENDENCE (LCS 2), built by a team led by General 
Dynamics, have two different seaframe designs, the maintenance concept 
is the same. Specifically, maintenance actions beyond the capability or 
capacity of ships force, including more extensive facilities 
maintenance, will be assigned to shore support via the Maintenance 
Support Detachment (MSD) and appropriate contracting vehicles. Legacy 
systems, such as fire pumps and air conditioners, will be supported by 
existing infrastructure. An Interim Support Period (ISP) has been 
contracted for a trial period of three years during which the 
Government will conduct a Business Case Analysis (BCA) to determine an 
optimal long-term sustainment approach. The three-year period will give 
the Navy time to evaluate contractor performance/responsiveness and 
appropriate usage and repair data in order to determine the optimal 
balance of ship's force, contractor, and organic Navy workforce needed 
to support LCS for the long term.
    Preventative and corrective maintenance will be accomplished during 
regularly planned Continuous Maintenance Availabilities (CMAVs). 
Initial estimates for LCS 1 and 2 include the cost to execute 
preventative, facility and corrective maintenance that would 
traditionally be accomplished by the crew. Every 117 days there will be 
a CMAV coinciding with crew turnover where a contractor team will 
conduct necessary preventive and corrective maintenance. Every two 
years the ship will complete a Selected Restricted Availability (SRA). 
Docking SRAs (DSRA) will take place approximately every six years.
    All shipboard maintenance requirements will be managed by the LCS 
Class Squadron (LCSRON) and the Maintenance Support Detachment (MSD) in 
San Diego. The MSD consists of two teams, the Maintenance Support and 
the Logistics Support Teams that will handle any and all maintenance 
and logistics issues for the LCS hulls. Those teams consist of 
personnel from the Regional Maintenance Center, Fleet Industrial 
Support Center (FISC), Navy Inventory Control Point (NAVICP), LCSRON, 
and the prime contractors.
    Mr. Ortiz. What is the plan to return sailors to waterfront schools 
a year after their first cruise? When will this plan be implemented and 
when will funding be requested?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The normal process is for schools to be scheduled to occur 
before and after a Sailor's first shipboard tour which could be up to 
five years in duration. Formal schools are conducted by Naval Education 
and Training Command (NETC) with quotas controlled by the detailers at 
Naval Personnel Command (NAVPERS). NAVPERS also funds the Sailors to 
attend these schools. On an as-needed basis, officers and enlisted 
personnel are sent by their commands to schools to obtain critical 
skills. These schools could occur at any time during a Sailor's tour, 
but typically not within one year of transferring or leaving the Navy, 
and are paid for out of the ship's training funds account. These 
schools may be formal schools, with a Navy Enlisted Code earned upon 
successful completion, or waterfront schools depending on the skill 
taught and whether the school is for individuals or teams. Officers 
additionally attend Surface Warfare Officer training during their 
initial tour as part of their indoctrination and qualification process.

    Amplifying information:

    Combat Systems and Deck training is based on an Apprentice-
Journeyman-Master construct and begins with ``A'' schools based on a 
Sailor's rate prior to their arrival at their first ship. Sailors gain 
experience and qualifications during their initial tour and then attend 
``C'' schools prior to their second tour.
    Engineering training follows an Apprentice-Journeyman-Master 
construct similar to topside training. All engineers attend Basic 
Engineering Common Core (BECC) before reporting to a ``strand'' 
training course based on their rate. BECC combined with the strand 
course constitutes the Apprentice level training. After an engineer's 
first tour, they attend ``C'' school based on their rate and earn NECs 
prior to their second ship tour.
    In the Surface Officer world when an officer executes their first 
set of orders, they are sent to one of five pipeline schools en route 
to their first ship. These schools provide fundamental skills that the 
ship will require based on first tour division officer billets and 
include: Ammunition Administration, Anti-submarine Warfare Officer, 
Legal Officer, TTWCS/ATWCS, and EKMS Administration. Once the officer 
has been permanently assigned to a ship, he or she is required to 
attend the first available four-week SWO Introduction Course, which is 
provided at each Fleet Concentration Area. The first three weeks of the 
course covers subjects ranging from Division Officer Fundamentals, 
Engineering, Maritime Warfare, Navy Familiarization, Ship Simulators, 
Watchstanding, and School Ship visits. The 4th week focuses on 
Leadership and it is managed by the Center for Personal and 
Professional Development. When the officer completes the course, he/she 
returns to their ship to complete all applicable fundamental, system, 
and watchstation Professional Qualification Standards (PQS). Dependent 
on ship's schedule and the officer's drive, the PQS is normally 
completed in 8 to 12 months. Once the PQS is complete the officer will 
attend a three-week Surface Warfare Officers School Advanced 
Shiphandling and Tactics (SWOS ASAT) course in Newport, RI. The course 
focuses on advanced Surface Warfare fundamentals, Seamanship and 
Navigation, and Maritime Warfare. Funding is provided by PERS-41 to 
attend SWOS ASAT. It is calculated based on travel to and from 
homeport. For ships deployed away from homeport, a quota request will 
be submitted to and approved by PERS-41. Additional training is 
provided after an officer's first tour based on their second tour 
assignment. For instance, if a junior officer is going to be the Damage 
Control Assistant then they will attend DCA School en route to their 
next command.
    Mr. Ortiz. The Navy surface fleet is heavily reliant upon private-
sector contractors for ship maintenance. The reliance has translated 
into, and is reflected in, the changes in maintenance training at the 
Navy's ``A'' (apprentice-level) and ``C'' (journeyman level) schools 
and onboard ship. For example, the engineman course at ``C'' school 
that previously took two months is now 13 days. Onboard ship, sailors 
no break down engines; they call in a contractor technical 
representative (CTR) instead. It would seem logical that the smaller 
the crew size, the more critical the individual sailor is to ship 
operation. If you no longer have intermediate maintenance shore 
infrastructure and if do not have engineered maintenance plan to 
support service-life extension, then it would seem apparent that you 
need to have very qualified sailors who can provide onboard care of the 
ship's systems. Is the product that the ``A'' and ``C'' schools are 
producing adequate to meet the needs of the fleet at a time of high 
operational tempo, reduced manning of crews, and pressure to fill 
individual augmentee billets? How do you incorporate maintenance back 
into the C school side after you have contracted out so much 
intermediate maintenance and reduced maintenance infrastructure ashore? 
How do we put a renewed value on onboard training?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The surface engineering `A' (Apprentice level) schools and 
`C' (journeyman level) schools production rates are closely aligned to 
FY09 production goals. Of the eight ratings that comprise surface 
engineers, six (EN, EM, GSE, GSM, HT and MR) are on or ahead of 
production goals. The other two (MM and IC) are slightly behind goal 
with sufficient capacity to meet goal by the completion of the fiscal 
year. Of the 17 total Surface ratings, the only Surface rating that 
will not meet the planned production goal for FY09 is the Combat System 
rating of ET. The content of the engineering schools was thoroughly 
reviewed and validated by a working group chartered by the Commander, 
Naval Surface Forces, US Atlantic Fleet in 2002, and then revalidated 
by SURFOR and AIRFOR in 2008. The goal of the working group was to 
conduct an Engineering Functional Analysis and define requirements for 
surface engineers in the 21st Century. The working groups had 
representatives from the US Navy, US Coast Guard, Merchant Marine, 
British Navy, academia and industry. Significant efficiencies were 
gained by providing the right training at the right time in a sailor's 
career. As a result, many courses attained a degree of efficiency that 
enabled the content to be delivered in significantly shorter training 
periods. While it may appear that an individual course was 
significantly reduced in length implying that the course is not meeting 
the training goal, training content was re-engineered to ensure that 
Sailors are being properly trained.
    The training requirements review process managed by Naval Education 
and Training Command ensures that course reviews are conducted on a 
periodic basis. The reviews enable the stake holders to update content 
training in response to shipboard system changes and to determine if 
Fleet objectives are being met. If the Fleet identifies training 
deficiencies, the courses are modified appropriately.
    The Navy is currently developing man-machine interface operating 
constructs and more robust automation for new construction ships as 
well as backfit capabilities for ships in service which reduce manpower 
requirements to operate and maintain ships. These also reduce the 
unique skill sets required of Sailors on legacy platforms. This is in 
response to OSD and DoN objectives to reduce Total Ownership Cost (TOC) 
for weapon systems and capabilities. Achieving this manpower TOC 
reduction requires systematic approaches to how ships are designed, 
maintained, operated, supplied and equipped. This includes embedded 
technologies to reduce corrective maintenance actions, automated 
performance monitoring and data collection capabilities to reduce 
operator loading, distance-support concepts to move non-operational 
tasks off ships to centrally managed support fimctions, and contract 
strategies to deliver business efficient logistic support to ships at 
the right location, time and cost. On board training is still being 
pursued in terms of skill retention for operators and maintainers who 
can practice scenario-based individual and teamwork skills and decision 
making/troubleshooting.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. ``What are the results of the mid-year review of 
surface ship maintenance requirements?'' ``Have there been additional 
requirements identified in the mid-year review that have affected the 
surface ship maintenance shortfall?'' ``What is the resulting total 
surface ship maintenance shortfall for the remainder of FY09?''
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Office of the Assistant Secretary (FINANCIAL MANAGEMENT 
AND COMPTROLLER) letter dated 13 March 2009 provided guidance regarding 
the annual mid-year review of unfunded requirements for the Navy's 
Operation and Maintenance (O&M,N) accounts. All O&M,N appropriation 
holders were directed to follow the process to generate, evaluate, 
prioritize, mitigate and forward all additional requirements identified 
since the beginning of the current fiscal year. During every phase of 
the process, each echelon command conducts a thorough review of the 
requirement prior to advancing that mid-year issue to higher authority; 
ultimately, to be reviewed and addressed by the Chief of Naval 
Operations (CNO). As of now, the beginning of the year ship maintenance 
shortfall of $417M has been mitigated by USFF, CPF and CNO by $262M 
leaving $155M as the current recognized ship maintenance supplemental 
request. The several unplanned and unfunded requirements that DoN is 
currently addressing have rough order of magnitude (ROM) estimates of 
$161M and more thorough evaluations of the total cost of repair, 
required funding and plans of action are being conducted. Fleet 
readiness remains one of the Navy's highest priorities and as such is 
receiving significant attention from the Navy leadership.
    Mr. Forbes. The Recent Non-disclosure agreement prohibits the 
exchange of information pre-decisional or otherwise. What does this 
mean? Does this mean that senior DOD officials will be unable to share 
unscripted data with Congress? Congress is mandated to raise and 
support armies and navies--without the support of DOD, this task is 
very hard to achieve. The NDA also prohibits sharing information other 
than with required government agencies and then list OMB. Does this 
mean that DOD is prohibited from exchanges with Congress in relation to 
developing budget priorities?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Department of Defense was directed by OMB (Memorandum M-
09-11 dated 19 February 2009) to refrain from making commitments about 
programs not specifically mentioned in the Department Budget Overview 
or address account level details until the release of the full Budget 
in April. We now expect that the full FY 2010 President's Budget will 
be released in early May. The Secretary of the Defense recently 
reiterated this direction in a memorandum dated 8 April 2009 to the 
Military Departments, Agencies and Staffs that the normal budget 
process rules apply and that DOD is ``obliged to protect from 
disclosure the details of the proposed budget until released by the 
President.'' The Department of the Navy is obligated to comply with the 
direction provided. The specific non-disclosure agreement which is 
referenced within this question was not provided to any of the 
witnesses at this hearing. As such, it is impossible to address these 
concerns. Specific questions regarding the application of the DOD non-
disclosure agreement would need to be addressed by OSD.
    Mr. Forbes. In January 2009, the Navy announced its decision to 
homeport a nuclear aircraft carrier at Mayport Naval Station in 
Florida. Mayport has never homeported a nuclear-powered carrier. We are 
told that the military construction price tag will be $456 million 
dollars, plus a one-time maintenance cost of $85 million and $24 
million in personnel change of station costs. That's $565 million. 
Additionally, the Navy estimates that it will cost an additional $25.5 
million in annual recurring costs compared to keeping a carrier in 
Norfolk. This is due to the recurring cost of base operating support 
and sustainment restoration and modernization costs, and travel and per 
diem for transitory maintenance labor. Can you help me understand how 
ship maintenance and readiness will be conducted on a nuclear aircraft 
should we move one to Florida? Were you consulted on the maintenance 
impacts of this arrangement during the Navy's decision-making process? 
Will the Navy be able to do perform all of the required maintenance 
work in Mayport, or will a Mayport-homeported carrier still need to 
travel to Norfolk for certain maintenance work? Specifically, how 
often, and at what cost, will the Navy be required to fly specialized 
workers down to Florida? Do you feel this is an effective utilization 
of manpower? What other impacts--such as on quality of life and worker 
efficiency--do you believe will result from such an arrangement?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. Ship maintenance and readiness for an aircraft carrier 
stationed in Florida will be performed in a manner similar to the way 
it is currently conducted in San Diego. As in San Diego, with the 
exception of drydocking, the Navy can conduct the full spectrum of 
repair work required to support a ready carrier. The Navy has been 
successfully executing CVN maintenance availabilities in San Diego 
since 1998. The relationship between Mayport and Norfolk Naval Shipyard 
will be the same as the proven relationship between San Diego and Puget 
Sound Naval Shipyard.
    The Navy's policy is that, when possible, we conduct maintenance in 
the homeports of our ships for crew Quality of Life reasons. During 
scheduled 6-month maintenance availabilities, conducted about once 
every 32 months, the Navy will be required to fly Naval Shipyard 
personnel to Mayport. The travel and per diem costs associated with 
that travel are estimated to be $23M. A CVN homeported in Mayport will 
be required to travel to Norfolk about five times in a 50-year life; 
four times for scheduled 10.5-month docking periods at Norfolk Naval 
Shipyard and once for a 39-month mid-life refueling overhaul conducted 
at Northrop Grumman Shipbuilding--Newport News (NGSB-NN). This is 
similar to CVNs homeported in San Diego that are required to travel to 
Puget Sound Naval Shipyard four times for docking and to NGSB-NN for a 
mid-life refueling overhaul.
    This arrangement works well on the west coast. The best indication 
of the effect on shipyard worker quality of life is there has been no 
difficulty in assembling qualified crews of voluntary workers to 
conduct the remote site maintenance. There is no indication of a loss 
of worker productivity compared to availabilities conducted in the home 
shipyard.
    Mr. Forbes. How much funding has the Navy requested in the 09 
supplemental request to meet year-end shortfalls in Ship Depot 
Maintenance funding levels? How much of the Navy's total FY09 
requirement for ship depot maintenance will be funded if Congress fully 
funds your requests for FY09?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Navy has requested a total of $440 million in FY09 
supplemental funding for ship maintenance, of which $155M has not yet 
been appropriated. The Navy plans to fund all remaining FY09 ship 
maintenance availabilities. We are taking targeted risk in our other 
operational accounts, while continuing to meet COCOM demands, to fund 
these availabilities. This plan is contingent upon receipt of the 
balance of supplement funding not yet appropriated.
    Mr. Forbes. How does the Navy anticipate budgeting for these costs 
in FY10? Given the recent incidents involving the USS Port Royal, the 
USS New Orleans and the USS Hartford and the likely emergent costs 
associated with getting these ships back into service at a time of war, 
does the Navy feel that these and other unanticipated costs can be 
properly accounted for in the regular FY10 budget and beyond, or do you 
anticipate targeted supplemental funding requests to handle such 
issues?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Navy has a process for adding unfunded prior year ship 
depot maintenance requirements (deferred maintenance) to future years 
and including that amount in future budget requests. The Navy baseline 
budget does not include allowances for extraordinary events like those 
that have affected USS Port Royal, USS New Orleans and USS Hartford. 
When they occur resources must be realigned and previously scheduled 
work must be deferred. Supplemental funding for Port Royal, Hartford 
and New Orleans would reduce the amount of deferred maintenance added 
to future budget years.
    Mr. Forbes. I understand that the Navy's stated policy on 
contracting for the DDG modernization program is to conduct these 
modernization projects in the homeport region of each destroyer. Is 
this still the plan?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. Yes, execution of DDG modernization is planned to be 
conducted in the ships homeport region. DDG modernization utilizes a 
Multi-Ship Multi-Option (MSMO) contract vehicle within homeport areas. 
This strategy provides potential for learning curve cost reductions, 
maximizing the ships operational availability and minimizing the 
disruption to the quality of life to ships force. MSMO contracts 
operate under an ASN(RD&A) approved acquisition strategy and form the 
cornerstone of the Navy Fleet Maintenance and Modernization strategy 
for surface ships.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. NYE
    Mr. Nye. In January 2009, the Navy announced its decision to 
homeport a nuclear aircraft carrier at Mayport Naval Station in 
Florida. Mayport has never homeported a nuclear-powered carrier and 
requires a minimum of $456 million Mil-Con dollars, a one-time 
maintenance cost of $85 million, $24 million in personnel costs, and 
$25.5 million in annual recurring costs compared to keeping a carrier 
in Norfolk. That's more than $565 million in infrastructure costs, 
which is double the original estimated cost. It is my, and many of my 
colleagues' estimate, that the total project cost for Homeporting a 
Carrier at Mayport will approach $1 billion. All this with $4.6 billion 
in unfunded 2009 budget priorities, $800 million in unfunded 
modernization and restoration projects at its four existing nuclear-
capable shipyards, and a surface ship maintenance shortfall of at least 
$417 million. Is the infrastructure that would be required to be built 
at Mayport, FL to homeport a CVN identical to that at Norfolk, VA? If 
the answer is the infrastructure not identical: a. Does this mean the 
Navy will not be able to perform all of the required maintenance work 
in Mayport, and a Mayport-homeported carrier will still need to travel 
to Norfolk for certain maintenance work? b. Specifically, how often, 
and at what cost, will the Navy be required to fly specialized workers 
down to Florida? If the answer is the infrastructure is identical: c. 
Which parts--exactly--of the nuclear maintenance capacity that will be 
requested for Mayport are duplicative to the maintenance capacity in 
Norfolk? Given these funding realities, it would appear to me that 
spending more money to duplicate maintenance capacity in Mayport will 
only exacerbate your unfunded priorities. d. Maintaining the necessary 
fleet vessel numbers is the most important mission for Navy fleet 
readiness. Will you pledge today to review the requests you make to 
your superiors to find where possible duplicative or unnecessary 
funding can be cut in order to obtain this preeminent goal?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. No, the infrastructure required to be built in Mayport is 
not identical to that in Norfolk, VA. Specifically, the infrastructure 
will not include a CVN capable dry dock. However, the Navy's policy is, 
when possible, to conduct maintenance in the ship's homeport to enhance 
crew Quality of Life. In this respect, the infrastructure required to 
homeport a CVN in Mayport is similar to the infrastructure that exists 
in San Diego today. The Navy has been successfully executing CVN 
maintenance availabilities in San Diego since 1998. The relationship 
between Mayport and Norfolk will be the same as the proven relationship 
between San Diego and Puget Sound with the same flexibility and 
dispersal objectives.
    During scheduled 6-month maintenance availabilities, conducted 
about once every 32 months, the Navy will be required to fly Naval 
Shipyard personnel to Mayport. The travel and per diem costs associated 
with that travel are estimated to be about $23M. A CVN homeported in 
Mayport will shift homeports to Norfolk about five times over a 50-year 
life; four times for scheduled 10.5-month docking periods at Norfolk 
Naval Shipyard and once for one 39-month mid-life refueling overhaul 
conducted at Northrop Grumman Shipbuilding-Newport News (NGSB-NN). This 
is similar to CVNs homeported in San Diego that are required to shift 
homeports to Puget Sound Naval Shipyard four times for docking and to 
NGNN for one mid-life refueling overhaul.
    Mr. Nye. If the answer is the infrastructure is identical:

    c. Which parts--exactly--of the nuclear maintenance capacity that 
will be requested for Mayport are duplicative to the maintenance 
capacity in Norfolk? Given these funding realities, it would appear to 
me that spending more money to duplicate maintenance capacity in 
Mayport will only exacerbate your unfunded priorities.

    d. Maintaining the necessary fleet vessel numbers is the most 
important mission for Navy fleet readiness.
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The infrastructure is not identical so the above questions 
do not apply.
    Mr. Nye. Will you pledge today to review the requests you make to 
your superiors to find where possible duplicative or unnecessary 
funding can be cut in order to obtain this preeminent goal?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Navy agrees that an important mission for Navy fleet 
readiness is our ability to reach our goal of a floor of 313 ships. A 
key tenet of this plan is our ability to reach the expected service 
life for our ships and provide the maximum response out of all the 
fleet assets consistent with fiscal resources. To this end, the Navy 
reviews all funding requests to ensure they represent the most 
effective and efficient use of the resources required to meet all DON 
strategic and operational guidance. The Department of Defense (DOD) has 
determined that the final decision on whether to permanently homeport 
an aircraft carrier in Mayport, Fla., will be made during the 2010 
Quadrennial Defense Review (QDR). The QDR will assess the need for 
carrier strategic dispersal in the broad context of future threats, 
future Navy force structure, and likely cost effectiveness.
    Mr. Nye. It is my understanding the Navy reported shortfall in Navy 
surface ship maintenance was $417M as of October 1st, 2008. There have 
been several unplanned and unfunded surface ship maintenance 
requirements since that time, including the USS Port Royal grounding 
and the most recent collision between a U.S. sub and the USS New 
Orleans. What are the results of the mid-year review of surface ship 
maintenance requirements and have there been additional requirements 
identified in the mid-year review that have affected the surface ship 
maintenance shortfall and if so, what is the resulting total surface 
ship maintenance shortfall for the remainder of fiscal year 09? a. In 
order to cover the current shortfall, you will certainly request 
substantial funding in the upcoming supplemental, how much funding 
exactly will you be requesting? b. If it isn't enough, that just kicks 
the problem into the next year and doesn't allow us to properly 
maintain the fleet. Maintaining the necessary fleet vessel numbers is 
the most important mission for Navy fleet readiness. I would like you 
to provide me a plan of how the Navy will rectify their surface ship 
maintenance funding deficit.
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Office of the Assistant Secretary (FINANCIAL MANAGEMENT 
AND COMPTROLLER) letter dated 13 March 2009 provided guidance regarding 
the annual mid-year review of unfunded requirements for the Navy's 
Operation and Maintenance (O&M,N) accounts. All O&M,N appropriation 
holders were directed to follow the process to generate, evaluate, 
prioritize, mitigate and forward all additional requirements identified 
since the beginning of the current fiscal year. During every phase of 
the process, each echelon command conducts a thorough review of the 
requirement prior to advancing that mid-year issue to higher authority; 
ultimately, to be reviewed and addressed by the Chief of Naval 
Operations (CNO). As of now, the beginning of the year ship maintenance 
shortfall of $417M has been mitigated by USFF, CPF and CNO by $262M 
leaving $155M as the current recognized ship maintenance supplemental 
request. The several unplanned and unfunded requirements that DoN is 
currently addressing have rough order of magnitude (ROM) estimates of 
$161M and more thorough evaluations of the total cost of repair, 
required funding and plans of action are being conducted. Fleet 
readiness remains one of the Navy's highest priorities and as such is 
receiving significant attention from the Navy leadership.
    Mr. Nye. The Navy recently suspended ship maintenance due to a 
funding shortfall. Its unfunded budget requirements for 2009 was $4.6 
billion; the sea service also has a backlog of nearly $800 million in 
unfunded modernization and restoration projects at its four nuclear-
capable shipyards. Given these funding realities, it would appear to me 
that spending more money to duplicate maintenance capacity in Mayport 
will only exacerbate your woes. How will you ensure that these added 
costs are accurately captured in future fleet readiness and maintenance 
budget requests to Congress?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Navy has experience establishing the maintenance 
facilities necessary to support homeporting CVNs in San Diego and has 
been successfully executing CVN maintenance availabilities in San Diego 
since 1998. The Navy will leverage that experience to ensure we 
accurately capture the cost to establish and maintain the 
infrastructure, as well as execute CVN maintenance in future fleet 
readiness and maintenance budget requests to Congress.
    Mr. Nye. The Navy's Environmental Impact Statement includes a 
``purpose and need statement'' that is to guide the Navy's 
decisionmaking regarding homeporting additional ships at Mayport. The 
Navy's purpose and need statement indicates that the Navy's action 
should utilize the available facilities at Naval Station Mayport in an 
effective and efficient manner in order to minimum new construction. 
The Navy chose the option that maximizes new construction for a type of 
ship that the former Secretary of the Navy has indicated that SOUTHCOM 
and Fourth Fleet does not need. Former Secretary of the Navy, Donald 
Winter, said this at the Current Strategy Forum in June 2008. ``The 4th 
Fleet demonstrates the Navy's commitment to the region by creating 
presence in support of combined training operations, humanitarian 
operations, and disaster response. And this can be done without using a 
carrier battle group. We should also remember that it is sometimes more 
effective to have a smaller combatant that can access many of the 
littoral areas where we need to go. Smaller platforms are also more 
suitable for training, as they are more compatible with the navies with 
which we will be operating. We must balance our presence requirements 
with the missions and threats we are likely to face in a given 
region.'' a. Given the fact that we know many of the existing frigates 
at Mayport will be retired soon and given the unique types of missions 
we encounter in Fourth Fleet's operating areas, such as counter-drug 
operations, theater support cooperation, military-to-military exercises 
and training, do you agree with Secretary Winter's assessment that the 
Fourth Fleet does not need a carrier group to accomplish its objectives 
``without a carrier battle group,'' or do you believe that homeporting 
a nuclear carrier at Mayport is necessary to provide the right mix of 
assets to support the US Fourth Fleet and justifies spending $565 
million to implement?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Fourth Fleet is routinely capable of accomplishing its 
engagement missions in the SOUTHCOM AOR without an aggregated carrier 
strike group (CSG). The Navy's objectives for homeporting a CVN in 
Mayport are independent of Fourth Fleet operations in the SOUTHCOM AOR. 
The Navy's objectives for homeporting a CVN in Mayport are to create a 
strategic dispersal alternative for Atlantic Fleet based CVNs and 
provide an alternative CVN nuclear maintenance capability on the East 
Coast. The Navy's decision was based on the following:

      <bullet>  Currently the Hampton Roads area is the sole East Coast 
location capable of supporting the operational, maintenance, and 
training needs of CVNs

      <bullet>  A catastrophic event of any type in the Hampton Roads 
Area, whether to the ships themselves, the shipping channel, the 
supporting maintenance and training infrastructure, or the surrounding 
community (Northrop Grumman Newport News Shipyard and/or the public/
private skilled nuclear labor force) has the potential to severely 
limit East Coast Carrier operations

      <bullet>  The flexibility of a 2nd CVN capable homeport reduces 
risk, provides the Navy operational readiness and flexibility, and is 
consistent with homeporting strategies in place on the West Coast 
(i.e., Bremerton and San Diego)

                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Whittman. Given the fact that we know many of the existing 
frigates at Mayport will be retired soon and given the unique types of 
missions we encounter in Fourth Fleet's operating areas, such as 
counter-drug operations, theater support cooperation, military-to-
military exercises and training, do you agree with Secretary Winter's 
assessment that the Fourth Fleet can accomplish its objectives 
``without a carrier battle group,'' or do you believe that homeporting 
a nuclear carrier at Mayport is necessary to provide the right mix of 
assets to support the US Fourth Fleet and justifies spending $565 
million to implement?
    Admiral Cullom, Admiral Campbell, Admiral Eccles, and Admiral 
McManamon. The Fourth Fleet is routinely capable of accomplishing its 
engagement missions in the SOUTHCOM AOR without an aggregated carrier 
strike group (CSG). The Navy's objectives for homeporting a CVN in 
Mayport are independent of Fourth Fleet operations in the SOUTHCOM AOR. 
The Navy's objectives for homeporting a CVN in Mayport are to create a 
strategic dispersal alternative for Atlantic Fleet based CVNs and 
provide an alternative CVN nuclear maintenance capability on the East 
Coast. The Navy's decision was based on the following:

      <bullet>  Currently the Hampton Roads area is the sole East Coast 
location capable of supporting the operational, maintenance, and 
training needs of CVNs

      <bullet>  A catastrophic event of any type in the Hampton Roads 
Area, whether to the ships themselves, the shipping channel, the 
supporting maintenance and training infrastructure, or the surrounding 
community (Northrop Grumman Newport News Shipyard and/or the public/
private skilled nuclear labor force) has the potential to severely 
limit East Coast Carrier operations

      <bullet>  The flexibility of a 2nd CVN capable homeport reduces 
risk, provides the Navy operational readiness and flexibility, and is 
consistent with homeporting strategies in place on the West Coast 
(i.e., Bremerton and San Diego)

    The Navy's Environmental Impact Statement includes a ``purpose and 
need statement'' that is to guide the Navy's decision-making regarding 
homeporting additional ships at Mayport. The Navy's purpose and need 
statement indicates that the Navy's action should utilize the available 
facilities at Naval Station Mayport in an effective and efficient 
manner in order to minimum new construction. The Navy chose the option 
that maximizes new construction for a type of ship that the former 
Secretary of the Navy has indicated that SOUTHCOM and Fourth Fleet does 
not need. Former Secretary of the Navy, Donald Winter, said this at the 
Current Strategy Forum in June 2008.
    ``The 4th Fleet demonstrates the Navy's commitment to the region by 
creating presence in support of combined training operations, 
humanitarian operations, and disaster response. And this can be done 
without using a carrier battle group. We should also remember that it 
is sometimes more effective to have a smaller combatant that can access 
many of the littoral areas where we need to go. Smaller platforms are 
also more suitable for training, as they are more compatible with the 
navies with which we will be operating. We must balance our presence 
requirements with the missions and threats we are likely to face in a 
given region.''

                                  <all>

</pre></body></html>
